Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
April 1, 2007 – September 30, 2007
GSA s SIGNIFICANT MANAGEMENT CHALLENGES
The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning
process commits us to addressing these critical issues. The following table briefly describes the
challenges we have identified for GSA and references related work products issued by the GSA OIG
and discussed in this semiannual report.

CHALLENGES                BRIEF DESCRIPTION OF CHALLENGE                                PAGE

ACQUISITION               Merging GSA’s procurement organizations will yield a          2– 5
PROGRAMS                  single acquisition service that will award and administer
                          governmentwide contracts worth $40 to $50 billion.
                          With growing programs and shrinking numbers of
                          qualified acquisition personnel, attention to important
                          fundamentals, such as ensuring competition and
                          meaningful price analysis, has diminished.

CONTRACT                  GSA’s multibillion dollar acquisition programs have           6 –7
MANAGEMENT                expanded rapidly in terms of sales, variety, and complexity
                          of the procurements performed. A growing list of warning
                          signs throughout the acquisition process suggests that
                          the technical and management skills needed by the
                          procurement workforce to operate in this more
                          sophisticated arena are not keeping pace with these
                          new demands.

INFORMATION               Technology applications have increased exponentially          7 – 12
TECHNOLOGY                as “E-Gov” is used to better manage operations and
                          interface with the public, but complex integration and
                          security issues exist.

MANAGEMENT                Management controls have been streamlined, resulting          12 – 19
CONTROLS                  in fewer and broader controls, making it essential that
                          the remaining controls be emphasized and consistently
                          followed. The need for strong internal controls underlies
                          several of the other management challenges.

PROTECTION OF             GSA is responsible for protecting the life and safety of      19 – 22
FEDERAL FACILITIES        employees and public visitors in Federal buildings. The
AND PERSONNEL             increased risks from terrorism have greatly expanded the
                          range of vulnerabilities. A broadly integrated security
                          program is required.

HUMAN CAPITAL             GSA has an aging workforce and is facing significant loss     No
                          of institutional knowledge due to retirements, including a    Reports
                          loss of key management staff over the past year. Better       This
                          recruitment and training programs are needed to develop       Period
                          the 21st century workforce.

AGING FEDERAL             GSA is being challenged to provide quality space to           No
BUILDINGS                 Federal agencies using an aging, deteriorating inventory      Reports
                          of buildings and facing critical budgetary limitations in     This
                          its modernization program.                                    Period
             Foreword


I am pleased to provide this report to the people of the United States and
their elected representatives in Congress. The Office of Inspector General
(OIG) at GSA has been working successfully to identify waste, fraud, and
abuse in the programs and operations of GSA. For the period covered by
this semiannual report (SAR), almost $648 million has been identified as
funds recommended for better use and questioned costs. The OIG has
issued 64 audit reports. We have also made 285 referrals for criminal
prosecution, civil litigation, and administrative action—activities valuable in
their own right, as well as for their deterrent effect. In this reporting period
we achieved savings from management decisions on financial
recommendations, civil settlements, and investigative recoveries totalling
over $293 million. Those results provided to the American taxpayer a return
of many times the cost of OIG operations.

We continue to work with other OIGs and law enforcement agencies as part
of the National Procurement Fraud Task Force of which I serve as Vice
Chair. As Co-Chair of the Legislative Committee, I oversaw the production
of a draft white paper on procurement legislation. The OIG also participates
with the United States Attorney’s offices across the country in regional
procurement fraud working groups. As we carry out all our duties, we
endeavor to assist GSA to accomplish its important mission in an efficient
manner and to observe all applicable requirements.

I want to express my appreciation for the steady record of accomplishment
of OIG employees and commend them for their continued professionalism,
dedication, and performance in a manner that fulfills their oaths to uphold
the law. I also wish to express my appreciation to Congress, OMB, and to
the employees throughout GSA who support the efforts of the OIG.



Brian D. Miller
Inspector General
October 31, 2007
          Table of Contents

                                                                                              Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Fiscal Year 2007 Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vi

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xvi

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Acquisition Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7

  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12

  Protection of Federal Facilities and Personnel . . . . . . . . . . . . . . .19

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . .23

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . . . .35

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . . . .37

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .39

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . .47

Appendix II – Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . .50

Appendix III – Audit Reports over 12 Months Old, Final Agency
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .58

Appendix IV – Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . .64

Appendix V – Reporting Requirements . . . . . . . . . . . . . . . . . . . . . .65

Appendix VI – OIG Offices and Key Officials . . . . . . . . . . . . . . . . . .66

This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral




                                                              April 1, 2007 – September 30, 2007 iii
                      Summary of OIG Performance

                       April 1, 2007 – September 30, 2007

OIG Accomplishments    Total financial recommendations                               $647,962,590

                       These include:

                       • Recommendations that funds be put to better use             $644,900,875

                       • Questioned costs                                               $3,061,715

                       Audit reports issued                                                64

                       Referrals for criminal prosecution, civil
                       litigation, and administrative action                               285

Results Attained       Management decisions agreeing with audit
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                    $293,652,995

                       Indictments and informations on criminal referrals                  72

                       Cases accepted for criminal prosecution                             32

                       Cases accepted for civil action                                       4

                       Successful criminal prosecutions                                    72

                       Civil settlements                                                     4

                       Contractors/individuals suspended and debarred                      47

                       Employee actions taken on administrative referrals
                       involving GSA employees                                             12




                                                                    April 1, 2007 – September 30, 2007 v
                                        Fiscal Year 2007 Results



                                       During Fiscal Year (FY) 2007, OIG activities resulted in:

                                       • Over $901.1 million in recommendations that funds be put to better use
                                         and in questioned costs. If adopted, these recommendations ultimately
                                         result in savings for the taxpayer.

                                       • 137 audit reports that assisted management in improving the efficiency
                                         and effectiveness of Agency operations.

                                       • Over $604.8 million in management decisions agreeing with audit
                                         recommendations; $114 million in criminal, civil, administrative, and other
                                         recoveries.

                                       • 269 new investigations opened and 240 cases closed.

                                       • 77 case referrals (183 subjects) accepted for criminal prosecution and
                                         25 case referrals (42 subjects) accepted for civil litigation.

                                       • 129 criminal indictments/informations and 104 successful prosecutions on
                                         criminal matters referred.

                                       • 9 civil settlements.

                                       • 25 employee actions taken on administrative referrals involving GSA
                                         employees.

                                       • 47 contractor/individual suspensions and 108 contractor/individual
                                         debarments.

                                       • 384 legislative matters and 26 regulations and directives reviewed.

                                       • 2,642 Hotline calls and letters received of which 80 were referred for
                                         criminal or civil investigations, 80 were referred to other agencies for
                                         follow up, and 187 were submitted to GSA for review and appropriate
                                         administrative actions.




vi Semiannual Report to the Congress
                             Executive Summary



                        During this semiannual period, the OIG continued to direct its auditing and
                        investigative resources toward what we have identified as the major
                        management challenges facing GSA. We conducted audit reviews and
                        investigations to ensure the integrity of the Agency's financial statements,
                        programs, and operations, and to ensure that the taxpayers' interests were
                        being protected. The OIG also continued to initiate actions to prevent fraud,
                        waste, and abuse, and to promote economy and efficiency throughout GSA.

                        The OIG's resources have been directed specifically toward conducting
                        preaward, financial, and programmatic audits; management control
                        assessments; contract reviews; investigations of fraud, abuse, and related
                        actions by GSA employees and government contractors; litigation support in
                        civil fraud, enforcement actions, criminal prosecutions, contract claims, and
                        administrative actions, all in an effort to maintain the integrity of GSA
                        programs.

                        Management Challenges
                        The following are significant reviews and cases that we have identified as
                        major issues facing GSA. The OIG continued to strive to provide the high
                        level of quality in our reviews and recommendations that we are known for
                        and which we believe are necessary in order for GSA to continue leading the
                        government in contracts and procurements. During this semiannual period,
                        the focus has been on preaward contract reviews, acquisition programs,
                        contract management, management controls, protection of Federal facilities
                        and personnel, information technology (IT), civil actions, and criminal
                        actions.

                        Acquisition Programs
                        The OIG's preaward review program provides information to contracting
  Contract preaward
                        officers for use in negotiating contracts. The predecisional, advisory nature
   review program       of preaward reviews distinguishes them from other audits. This program
                        provides vital and current information to contracting officers enabling them to
                        significantly improve the government's negotiating position and to realize
                        millions of dollars in savings on negotiated contracts. This period, the OIG
                        performed preaward reviews of 42 contracts with an estimated value of
                        $12 billion. We recommended that approximately $645 million of funds be
                        put to better use (page 2).

                        Under the Multiple Award Schedules Program (Schedules program), GSA's
MAS contract workload   Federal Acquisition Service (FAS) establishes long-term governmentwide
   management           contracts with vendors to provide Federal agencies access to over 10 million
                        commercial supplies and services. We reviewed whether FAS was
                        effectively managing the workload associated with processing contract
                        actions (offers and modifications, including options to extend existing
                        contracts) in the Schedules program. We assessed workload distribution,
                        contracting action compliance with standards, cycle time, and general
                        management of program costs.


                                                                   April 1, 2007 – September 30, 2007 vii
                                              Executive Summary



                                         We found that decisions on workload distribution could be enhanced with
                                         better data. Further, better usage of resources could be achieved through a
                                         strategic approach to managing the Schedules program.

                                         Our review of contract file documentation indicated that the acquisition
                                         centers generally complied with administrative policies and procedures
                                         related to approvals and followed center templates for exercising contract
                                         options. However, FAS could improve consistency and effectiveness in
                                         achieving best value for customer agencies and taxpayers by: (1) improving
                                         guidance to contracting personnel that describes specific documentation
                                         requirements related to price analysis, and policies and techniques related to
                                         negotiations, and (2) establishing performance measures that evaluate
                                         contracting personnel’s verification of vendor commercial sales practices and
                                         disclosures, effectiveness in analyzing prices and conducting negotiations,
                                         and consideration of field pricing assistance (page 3).

                                         Contract Management
                                         FAS’s Audit Division administers unused airline ticket refund requests for all
   Uncollected airline
                                         Federal client agencies. It has responsibility to identify and recover
     ticket refunds                      overcharges and debts relating to transportation bills, including airline tickets,
                                         and has the authority to seek refunds of unused tickets purchased for
                                         government travel for a period of up to 10 years.

                                         Two Government Accountability Office (GAO) audit reports in 2004 and 2006
                                         disclosed that a significant number of unused tickets existed at the
                                         Department of Defense (DoD) and the Department of State valued at over
                                         $100 million. Both agencies sought FAS's assistance as the government's
                                         collection agent to seek refunds for over 85,000 unused or partially used
                                         tickets valued at nearly $56 million during calendar years 2005 and 2006,
                                         based on information furnished by the airlines.

                                         As a result of the GAO reports, we initiated a limited scope review of FAS's
                                         Audit Division and determined that although controls and procedures were
                                         generally adequate over administering receipts for unused airline tickets, the
                                         process for refund collections needed significant improvements. We found
                                         that the Audit Division was unable to identify the amount of refunds received
                                         and that it had not collected on the claimed amount of $56 million due from
                                         the airlines for DoD and State Department (page 6).

                                         Information Technology (IT)
                                         GSA's Electronic Messaging Services (GEMS) and National Notes
  E-mail and database
                                         Infrastructure (GNNI) provide the Agency with a valuable suite of tools
        security                         including e-mail, electronic calendar, Web site development and
                                         maintenance, and database creation for sharing information and documents.
                                         GEMS is GSA's e-mail system (Lotus Notes) and the GSA Chief Information
                                         Officer (GSA-CIO) has overall management responsibility for GEMS. GSA
                                         Services and Staff Offices and Regions use approximately 8,000 Lotus


viii Semiannual Report to the Congress
                         Executive Summary



                    Notes databases for such activities as contract management, managing
                    building construction, processing system helpdesk requests, tracking status
                    of background investigations on employees and contractors, and maintaining
                    personnel information. Our review focused on whether GSA has adequate
                    security controls to manage risks with agencywide GEMS and GNNI
                    applications. We found that significant management, operational, and
                    technical control weaknesses have put at risk the security of essential
                    information, services, and systems in the Agency (page 8).

                    The Federal Information Security Management Act of 2002 (FISMA) requires
GSA’s IT security   Federal agencies to develop, implement, and document an agencywide
   program          information security program. While GSA continues to improve the IT
                    Security Program, the conditions that we found during this review indicate
                    that management actions have not been fully effective in mitigating risks and
                    securing GSA systems. We found that GSA IT system security risks and
                    related controls are not comprehensively addressed for all applications, data
                    repositories, and services within system boundaries. Also, oversight of
                    contractor-supported systems needs to be more comprehensive.
                    Additionally, opportunities exist to strengthen configuration management.
                    Recurring conditions in GSA's IT Security Program have exposed the
                    Agency's information assets to undue risks of inappropriate disclosure,
                    destruction, and alteration.

                    Our assessment results on the effectiveness of GSA's IT Security Program
                    for meeting the FISMA requirements were based on separate audits of the
                    following four systems: (1) Region 8 Public Buildings Service (PBS) local
                    area network (LAN); (2) the Fleet Management System (FMS); (3) GSAjobs;
                    and (4) Region 8 Federal Technology Service (FTS) LAN (page 9).

                    Management Controls
                    The focus of the review was to determine whether leasing actions that were
Delegated leasing   performed by customer agencies under delegations of authority from GSA
    authority       were awarded in accordance with applicable laws, regulations, and policies
                    and procedures.

                    Although GSA encourages all Federal agencies to use PBS as their leasing
                    agent for general-purpose space, GSA can delegate its leasing authority to
                    allow an agency to perform a specific leasing action without the assistance
                    of PBS personnel. In accordance with lease delegation procedures,
                    delegated agencies are responsible for complying with all applicable rules,
                    laws, and regulations related to awarding leases. In addition to compliance
                    with laws and regulations, the lease delegations have other restrictions, such
                    as: (1) the annual rental cannot exceed prospectus limitations; and
                    (2) agencies are to provide PBS with award information on delegated leases.




                                                               April 1, 2007 – September 30, 2007 ix
                                           Executive Summary



                                      We found that many of the leasing actions we reviewed, especially some
                                      large leasing actions, did not comply with all applicable policies, laws, and
                                      regulations. We reviewed 25 delegated lease procurements made from
                                      Fiscal Year (FY) 2001 through FY 2006. Eighteen (72 percent) had one or
                                      more deficiencies. The deficiencies included potential prospectus violations,
                                      excessive rental rates and other lease costs, violations of delegated lease
                                      authority, and inadequately documented lease files (page 13).

                                      During a nationwide audit of Reimbursable Work Authorizations (RWA), we
       Procurement                    identified evidence of procurement irregularities in GSA's National Capital
       irregularities                 Region that we brought to regional management's attention through a
                                      separate report. An RWA is a binding agreement between GSA and its
                                      customer and is used to acquire such things as space alterations or overtime
                                      utilities required by the customer agency. The agreement is defined in the
                                      RWA by including the scope of services requested and the specific dollar
                                      amount authorized.

                                      The irregularities were associated with GSA's procurement of support staff
                                      on behalf of the U.S. Marshals Service and included out-of-scope purchase
                                      orders, issuance of purchase orders after the commencement of work, and
                                      lack of competition without requisite justifications. Further, a lack of controls
                                      over the process allowed the irregularities to occur by accepting the RWAs
                                      without an identified requirement, a defined scope, and a cost estimate.
                                      These RWAs also were accepted in advance of their use, and in certain
                                      cases crossed fiscal years (page 14).

                                      The Federal Property and Administrative Services Act of 1949 designated
  Freight Management                  GSA as traffic manager for Federal agencies and the only agency authorized
        Program                       to negotiate with transportation carriers on behalf of civilian agencies. The
                                      Freight Management Program provides a framework for fulfilling the
                                      domestic and international freight shipping requirements of Federal
                                      agencies. Our audit objectives were to determine if the organization ensures
                                      competitive rates that provide best value to the Federal user, and agencies
                                      are remitting the Industrial Funding Fee (IFF) in an accurate, complete, and
                                      timely manner. We found that inherent control weaknesses in collecting
                                      sales and revenue data restrict the Travel and Transportation Management
                                      Division’s ability to manage its program to ensure best value for its customer
                                      agencies and ensure that the IFF is remitted in an accurate, complete, and
                                      timely manner (page 15).

                                      We conducted a review of GSA's Heating Operation and Transmission
 HOTD operations and                  District (HOTD), a steam and chilled water utility service to government and
      finances                        quasi-government customers in the National Capital Region to determine if
                                      HOTD operates and uses its assets economically, efficiently, and securely.
                                      We included a review of how HOTD determines the rate it bills customers.




x Semiannual Report to the Congress
                                 Executive Summary



                            We identified several areas of concern: (1) HOTD's rate setting
                            methodology was not designed to recover key costs and the current account
                            structure is an impediment to analyzing costs; (2) anticipated energy savings
                            from an investment in the plant were not achieved; (3) the backup facility for
                            the Central Plant was decommissioned in FY 2000 and a strategy is needed
                            for addressing this unused building and for providing a backup facility; and
                            (4) several accounting issues needed to be addressed
                            (page 16).

Sole source janitorial      The Public Buildings Service, Golden Gate Office (GGO), a field office under
                            the direction of the San Francisco Service Center in the Pacific Rim Region,
      services
                            is responsible for managing five government-owned buildings and 24 leased
                            buildings. Our review objectives were to determine whether the GGO:
                            (1) made prudent procurements in accordance with laws, regulations, and
                            established policy and controls; and (2) effectively performed contract
                            administration duties.

                            We found that contract administration was generally effective and assured
                            that the quality and quantity of goods and services received were what the
                            government ordered for the majority of the audited items. However, we were
                            unable to determine whether the government received adequate quality and
                            quantity for janitorial services and procurements involving three sole source
                            awards because monthly surveillance reports on contractor performance
                            were not prepared. Also, file documentation was lacking to support fair and
                            reasonable pricing for those awards (page 18).

                            Protection of Federal Facilities and Personnel
  Homeland Security         Homeland Security Presidential Directive 12 (HSPD-12) mandates a
Presidential Directive 12   common standard for identification credentials to be used by all Federal
                            employees and contractors to gain physical and logical access to
                            federally-controlled facilities and information systems. This directive is
                            intended to enhance security, reduce identify fraud, increase the efficiency of
                            identity proofing and verification, and protect the personal privacy of those
                            issued government credentials. Agency implementation necessitates
                            revising current processes to meet the National Institute of Standards and
                            Technology's provisions published in the Federal Information Processing
                            Standards Publication 201. The standards require a revision of identity
                            proofing and the issuance of a Personal Identity Verification (PIV II) card that
                            uses smart card technology. To implement HSPD-12, the Office of
                            Management and Budget (OMB) outlined major milestones in a FY 2005
                            memorandum. Our review objective was to analyze whether actions
                            underway are adequate to meet OMB requirements and timeframes. We
                            determined that GSA met the first and second milestones by developing
                            supplemental Agency policy, formalizing background investigation processing
                            requirements, and starting to deploy PIV II compliant cards. However, we
                            found that GSA would likely not meet the October 27, 2007 deadline




                                                                        April 1, 2007 – September 30, 2007 xi
                                             Executive Summary



                                        requiring the issuance of PIV II compliant cards to all contractor personnel,
                                        and to all employees with 15 years or less of service. Obstacles impacting
                                        GSA's implementation efforts include the late award of a contract for issuing
                                        physical access cards and the contractor's limited production capability, the
                                        absence of a centralized database for contractor information, and the need
                                        for a detailed implementation plan (page 20).

                                        Promoting and Protecting Integrity
                                        Significant Civil Actions
                                        In two separate agreements signed on July 30, 2007, International Business
                                        Machines Corporation (IBM) agreed to pay $2,972,039 and
                                        PriceWaterhouseCoopers LLP, agreed to pay $2,316,662 to settle their
                                        potential civil False Claims Act liability relating to allegations made by private
                                        individuals in a qui tam case that the two companies, in their role as
                                        information technology systems integrators, defrauded the government. The
                                        government's investigation determined that the two companies were involved
                                        in various undisclosed alliance relationships with hardware and software
                                        manufacturers, and that the financial transactions and rebates based on
                                        those relationships constituted illegal kickbacks and conflicts of interest that
                                        violated the companies' GSA contracts, as well as the Federal Acquisition
                                        Regulation (page 23).

                                        The Sigmon Group, LLC (TSG) pled guilty to submitting false and fraudulent
                                        invoices to the U.S. Navy for work completed under various task orders
                                        issued by the U.S. Navy through its multiple award schedule contract with
                                        GSA. TSG agreed to pay $1,055,243 to the government ($642,073 as
                                        criminal restitution), and was sentenced to 5 years probation and a criminal
                                        fine of $750,000 (page 23).

                                        Significant Criminal Actions and Investigations
          Bribery                       In three cases involving over $180,000 in bribes and conspiracy, OIG
                                        investigators successfully obtained judgments of over $1.4 million in
                                        restitution. A former GSA Regional Office FTS IT Director accepted bribes
                                        for improperly awarding and inflating task orders. A Veterans Administration
                                        employee used his position to obtain supplies and services through two
                                        companies in which he had financial interests. A former National Guard
                                        employee and an ex-Federal sales representative conspired to improperly
                                        purchase equipment (page 24).

           Ethics                       OIG investigators pursued two cases involving possible violations of ethics
                                        regulations. A former Army National Guard employee pled guilty to acts
                                        affecting a personal financial interest. In another case, the GSA
                                        Administrator may have failed to act impartially and created the appearance
                                        of providing preferential treatment in the awarding of a contract (page 25).

           Fraud                        In five cases involving $338,165 in kickbacks and $788,875 in fraudulently
                                        secured government contracts OIG investigators successfully obtained
                                        judgments of almost $1.2 million in restitution. A GSA contractor employee

xii Semiannual Report to the Congress
             Executive Summary



        and a subcontractor pled guilty to conspiracy to commit mail fraud and
        aiding and abetting. In another case, two GSA contractor employees pled
        guilty to defrauding the government. A former vice president of a
        communications company pled guilty to social security fraud. The last of the
        eight individuals involved in the conspiracy to commit mail fraud, wire fraud,
        and aggravated identity theft was sentenced and ordered to pay restitution.
        A GSA contractor employee was convicted of time and attendance fraud
        (page 26).

Theft   In three cases involving over $502,000 in theft of government property OIG
        investigators successfully obtained judgments of over $580,000 in fines and
        restitution and a total of over 2 years confinement, 13 years probation, and
        350 hours of community service. A GSA employee stole knives and utility
        tools and resold them. In another case five former contract employees stole
        government property and sold it on eBay. A former GSA employee failed to
        return government property upon termination (page 29).

        GSA Voyager Fleet Charge Card (Fleet card) Abuse – Highlights
        In 13 separate cases involving abuse of Fleet cards OIG investigators
        obtained judgments of over $117,000 in restitution and fines, over 2 years
        confinement, 15 years supervised release and probation, and
        10 hours of community service. In another case the last individual involved
        in a scheme to counterfeit Fleet cards was sentenced to 5 years
        confinement, 5 years probation, fines, and court costs (page 30).

        Suspension and Debarment – Highlights
        GSA has a responsibility to ascertain whether the people or companies they
        do business with are eligible to participate in federally assisted programs
        and procurements, and that they are not considered "excluded parties." The
        OIG has made it a priority to assist GSA in ensuring that the government
        does not award contracts to individuals or companies that lack business
        integrity or honesty.

        During this reporting period, the OIG made 71 referrals for consideration of
        suspension/debarment to the GSA Office of Acquisition Policy; subsequently,
        GSA issued 47 suspension and debarment actions based on current and
        previous OIG referrals (page 33).

        Integrity Awareness – Highlights
        The OIG presents Integrity Awareness Briefings nationwide to educate GSA
        employees on their responsibilities for the prevention of fraud and abuse and
        to reinforce employees' roles in helping to ensure the integrity of Agency
        operations.




                                                  April 1, 2007 – September 30, 2007 xiii
                                             Executive Summary



                                        This period, we presented 33 briefings attended by 648 regional and Central
                                        Office employees. The briefings explained the statutory mission of the OIG
                                        and methods available for reporting suspected instances of wrongdoing
                                        (page 33).

                                        OIG Hotline – Highlights
                                        The OIG received 1,407 Hotline contacts during this reporting period. Of
                                        these contacts: 219 cases were initiated. Of these cases 15 were referred
                                        to GSA program officials for review and action; 38 cases were referred to
                                        other Federal agencies for follow up; and, 44 were referred to OIG for
                                        criminal/civil investigations or audits (page 34).

                                        Summary of Results
                                        The OIG made almost $648 million in financial recommendations to better
                                        use government funds; made 285 referrals for criminal prosecution, civil
                                        litigation, and administrative actions; reviewed 248 legislative and regulatory
                                        actions; and received 1,407 Hotline contacts. This period, we achieved
                                        savings from management decisions on financial recommendations, civil
                                        settlements, and investigative recoveries totaling over $293 million.




xiv Semiannual Report to the Congress
(This page was intentionally left blank.)


         April 1, 2007 – September 30, 2007 xv
                                        OIG Organization Chart


                                             Inspector General
                                                Brian D. Miller                              Advisor
                                          Deputy Inspector General                       Robert M. Samuels
                                          Robert M. Samuels (Acting)


            Office of Counsel to the IG                               Office of Internal Evaluation & Analysis
                  Kevin A. Buford                                                  Peter J. Coniglio
                 Counsel to the IG                                                     Director


    Office of Administration                   Office of Audits                      Office of Investigations
      Carolyn Presley-Doss                    Andrew Patchan, Jr.                       Charles J. Augone
  AIG for Administration (Acting)               AIG for Auditing                      AIG for Investigations


       Budget, Planning, and                     Audit Operations Staff                  Investigations Operations
       Financial Management                                                                       Division
              Division
                                                    Administration &
                                                   Data Systems Staff
       Facilities and Contracts                                                              Regional Offices
                Division                                                                      Washington, DC
                                                      Information                               New York
                                                 Technology Audit Office                         Atlanta
         Human Resources                                                                         Chicago
             Division                                                                          Kansas City
                                                     Real Property                              Fort Worth
                                                                                              San Francisco
                                                      Audit Office
                                                                                                 Auburn
       Information Technology
              Division                          Finance & Administrative
                                                      Audit Office                               Sub-Offices
                                                                                                   Boston
                                                                                                 Philadelphia
                                                  Acquisition Programs
                                                      Audit Office


                                                  Contract Audit Office



                                                   Field Audit Offices
                                                     Washington, DC
                                                       New York
                                                      Philadelphia
                                                        Atlanta
                                                        Chicago
                                                      Kansas City
                                                       Fort Worth
                                                     San Francisco




xvi Semiannual Report to the Congress
                                  OIG Profile



                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities. Our
                      components include:

                      • The Office of Audits, an evaluative organization staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations through
                        program performance reviews, assessment of management controls, and
                        financial and compliance audits. The office conducts external reviews in
                        support of GSA contracting officials to ensure fair contract prices and
                        adherence to contract terms and conditions. The office also provides
                        research, benchmarking, and other services to assist Agency managers in
                        evaluating and improving their programs.

                      • The Office of Investigations, an investigative organization that conducts
                        a nationwide program to prevent, detect, and investigate illegal and/or
                        improper activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal advice
                        and assistance to all OIG components, represents the OIG in litigation
                        arising out of or affecting OIG operations, and manages the OIG
                        legislative/regulatory review.

                      • The Office of Internal Evaluation and Analysis, a multidisciplinary staff
                        that manages operational reviews of the OIG components, performs
                        special projects for the Inspector General, including research and
                        analysis, provides advice to the Inspector General, and conducts internal
                        affairs reviews and investigations.

                      • The Office of Administration, a professional staff that provides
                        information technology, budgetary, administrative, personnel, and
                        communications support and services to all OIG offices.

Office Locations      The OIG is headquartered in Washington, DC, at GSA’s Central Office
                      Building. Field audit and investigation offices are maintained in Boston, New
                      York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, Auburn, and Washington, DC. (A contact list of OIG offices and
                      key officials is provided in Appendix VI.)

Staffing and Budget   As of September 30, 2007, our on-board strength was 299 employees. The
                      OIG’s Fiscal Year (FY) 2007 budget was $53.5 million.




                                                                 April 1, 2007 – September 30, 2007 1
                                       Management Challenges



                                      Each year since 1998, we have identified and shared with Congress and
                                      senior GSA management what we believe to be the major challenges facing
                                      the Agency. (The current list is summarized on the front inside cover.) This
                                      period we continued our work in addressing these challenges, making
                                      recommendations, and working with management to improve Agency
                                      operations. The following sections highlight our activities in these areas.

                                      Acquisition Programs
                                      GSA provides Federal agencies with products and services valued in the
                                      billions of dollars through various types of contracts. We conduct reviews of
                                      these activities to ensure that the taxpayers’ interests are protected.

                                      Significant Preaward Reviews and Other Audits
                                      The OIG's preaward review program provides information to contracting
                                      officers for use in negotiating contracts. The pre-decisional, advisory nature
                                      of preaward reviews distinguishes them from other audits. This program
                                      provides vital and current information to contracting officers, enabling them
                                      to significantly improve the government's negotiating position and to realize
 Over $644 million in                 millions of dollars in savings on negotiated contracts.
  savings could be
  achieved through                    This period, the OIG performed preaward reviews of 42 contracts with an
                                      estimated value of $12 billion. We recommended that over $644 million of
   lower contract                     funds be put to better use.
       prices.
                                      Two of the more significant Multiple Award Schedule contracts we reviewed
                                      had projected governmentwide sales totaling $5.9 billion. The review
                                      findings recommended that $419 million in funds be put to better use. The
                                      reviews disclosed that these vendors offered prices and discounts to GSA
                                      that were not as favorable as the prices and discounts other customers
                                      received from these vendors. For example, one company did not disclose
                                      its actual sales practices, and its offer to GSA was not reflective of the
                                      company's most favored customer pricing. The other company's disclosures
                                      were inaccurate, incomplete, and misleading, and its offer was not consistent
                                      with prices offered to its other customers comparable to GSA.

                                      There are now more than 10,000 vendors doing over $35 billion in business
                                      annually under GSA's procurement programs. Past history has shown that
                                      for every dollar invested in preaward contract reviews, at least $10 in lower
                                      prices or more favorable terms and conditions are attained for the benefit of
                                      the government and the taxpayer. The Office of Management and Budget
                                      (OMB) has long recognized the increasing dollar value of GSA's contract
                                      activities and our limited resources in providing commensurate audit
                                      coverage. Through the Federal Acquisition Service (FAS) contract program
                                      revenue, OMB officials have provided us additional financial support to
                                      increase our work in this area. These funds enabled us to hire additional
                                      staff to support expanded contract review activities including, primarily, an



2 Semiannual Report to the Congress
                     Management Challenges



                    Acquisition Programs (continued)

                    increase in preaward contract reviews, as well as more contract
                    performance reviews that evaluate contractors' compliance with pricing,
                    billing, contract terms, and periodic program evaluations to assess the
                    efficiency, economy, and effectiveness of contracting activities. We now
                    allocate about 50 percent of our resources to contract reviews.

                    During this reporting period, management decisions were made on 36 of the
                    preaward reports issued during the last year, which recommended that more
                    than $283 million of funds be put to better use. Management agreed with
                    99 percent of the recommended savings.

                    MAS Contract Workload Management
                    Under the Multiple Award Schedules Program (Schedules program), GSA's
                    FAS establishes long-term governmentwide contracts with vendors to
                    provide Federal agencies access to over 10 million commercial supplies and
                    services. From FY 1999 through FY 2006, schedule sales increased from
                    $10.5 billion to $35.1 billion. During FY 2006, personnel in GSA's nine
                    acquisition centers processed 4,929 offers and 22,783 contract
                    modifications. As of FY 2006, 529 people comprise the Schedules program
                    staff.

                    The focus of the review was to determine if FAS was effectively managing
Better data and a   the workload associated with processing contract actions (offers and
                    modifications, including options to extend existing contracts) in the
 more strategic     Schedules program. We assessed workload distribution, contracting actions
  approach are      compliance with standards, cycle time, and general management of program
   needed for       costs.
managing contract   We found that decisions on workload distribution could be enhanced with
   workload.        better data. Further, better usage of resources could be achieved through a
                    strategic approach to managing the Schedules program. FAS management
                    uses an automated system, FSS Online, to assist it in making decisions
                    concerning distribution of workload within the centers and among the
                    centers. Improving the quality and accuracy of data related to contract
                    modifications in this system would enhance FAS's ability to balance
                    workload. Further, additional efforts by FAS to trim inefficiencies from its
                    workload would enhance resource utilization. For example, FAS could
                    further reduce the number of underutilized contracts by implementing a more
                    structured process to identify contracts with sales below the minimum
                    threshold and by raising that threshold. Also, there are opportunities to
                    adopt a more strategic approach to managing the Schedules program that
                    could improve FAS's use of resources and Schedules program outcomes.
                    For example, it may be desirable to strategically limit the number and type of
                    vendors offering the identical goods or services while still providing customer
                    agencies with sufficient selection, but extensive analysis would be needed to
                    develop specific strategies.


                                                                April 1, 2007 – September 30, 2007 3
                                       Management Challenges



                                      Acquisition Programs (continued)

                                      Our review of contract file documentation indicated that the centers generally
                                      complied with administrative policies and procedures related to approvals
                                      and followed templates for exercising options. However, FAS could improve
                                      consistency and effectiveness in achieving best value. Prior reviews by both
                                      our office and the Government Accountability Office cited weaknesses in this
                                      area and emphasized the importance of price analysis in achieving a fair
                                      and reasonable price determination. More recently, we found that over
                                      75 percent of our preaward reviews of Multiple Award Schedule contracts
                                      identified vendor commercial sales practices information that was not
                                      current, accurate, or complete. FAS could improve consistency and
                                      effectiveness in achieving best value for customer agencies and taxpayers
                                      by: (1) improving guidance to contracting personnel that describes specific
                                      documentation requirements related to price analysis and policies and
                                      techniques related to negotiations, and (2) establishing performance
                                      measures that evaluate contracting personnel’s verification of vendor
                                      commercial sales practices, disclosures, effectiveness in analyzing prices
                                      and conducting negotiations, and consideration of field pricing assistance.

                                      Cycle time related to processing contracting actions is one of the primary
                                      measures used by the centers to gauge efficiency of operations, and FAS
                                      has been able to reduce cycle times in recent years. FAS may be able to
                                      further reduce cycle times by expanding use of practices employed by some
                                      centers, such as performing an initial screening of incoming offers. In
                                      addition, development of standard operating procedures for transferring
                                      contract files when Schedule reassignments occur could help to foster a
                                      smooth transition. Also, as it moves towards its new goal to award contracts
                                      in 30 days, FAS needs to strike a balance between swiftness and quality for
                                      contract awards, while ensuring timeliness for all contracting actions.

                                      While Schedules program sales and revenues have risen substantially over
                                      the years, so has the cost of administering the program. FAS has recently
                                      taken action to reduce program costs, but may be able to further reduce
                                      costs. It could achieve greater reductions by adopting a more strategic
                                      approach to the Schedules program and by increasing emphasis on cost
                                      control through enhancements to performance measures.

                                      In summary, we recommended that the Commissioner, FAS:

                                      • Develop policy to standardize processes for the method and timing of
                                        entering contract modification information into FSS Online and amend
                                        FSS Online to capture data on the complexity of actions.




4 Semiannual Report to the Congress
 Management Challenges



Acquisition Programs (continued)

• Take a more structured approach to reduce the numbers of contracts
  below the sales threshold and consider increasing minimum sales
  threshold.

• Use a more strategic approach to obtaining best value from the
  Schedules program that would include thorough market research and
  analysis of commercial sales practices combined with an analysis of
  government buying patterns for the goods and services offered under the
  program.

• Establish specific guidance on price analysis documentation and
  negotiation policies and techniques.

• Establish performance measures that evaluate contracting personnel’s
  verification of vendor disclosures for commercial sales practices,
  effectiveness in analyzing prices and conducting negotiations, and
  consideration of field pricing assistance. Also, establish a performance
  measure related to the costs of the Schedules program.

• Develop standard procedures for initial screening of offers and transferring
  contracts when schedules are reassigned.

The FAS Commissioner agreed with 8 of the 10 recommendations and
expressed partial agreement with 2 recommendations. The Commissioner
stated that changes to the contract modification process would be
considered as part of FAS's broader reengineering process for the
Schedules program, and agreed with the need for meaningful performance
measures, but was not convinced that the measures recommended
(pertaining to verification of vendor disclosures related to commercial sales
practices) reflected the proper role for a contracting officer/contract
specialist. The Commissioner also indicated that FAS did not believe that
evaluating effectiveness in analyzing prices and conducting negotiations was
conducive to quantitative measurement and expressed concern that
establishing a specific performance measure would revoke the contracting
officer's right to exercise judgment.

After considering management's comments, we reaffirmed the
recommendations, stressing that performance measures are key indicators
of employee performance and a catalyst for change. In addition, we noted
that the large percentage of inaccuracies identified in OIG preaward
attestation reviews compared to the relatively small number of offers that the
OIG can review, indicates this is a risk area that FAS needs to address. We
also noted that the OIG was conducting a separate review of MAS
performance measures, during which we planned further work in the area of
contracting officer measures.



                                            April 1, 2007 – September 30, 2007 5
                                       Management Challenges



                                      Contract Management
                                      GSA increasingly accomplishes its mission by using contractors to provide
                                      client services and products. Its multibillion dollar acquisition programs have
                                      expanded rapidly in terms of size, variety, and complexity of the
                                      procurements performed. While many GSA contracts are well crafted and
                                      properly administered, we continue to find a significant number of
                                      weaknesses. Our audit work in recent years has revealed a growing list of
                                      warning signs throughout the acquisition process that suggest that training
                                      and improved technical and management skills are needed for the
                                      procurement workforce to operate in this more sophisticated arena and keep
                                      pace with new demands.

                                      Review of FAS's Administration of Unused Airline Tickets
                                      The FAS’s Audit Division administers unused airline ticket refund requests
                                      for all Federal client agencies. It has responsibility to identify and recover
                                      overcharges and debts relating to transportation bills, including airline tickets,
                                      and has the authority to seek refunds of unused tickets purchased for
                                      government travel for up to 10 years. Two Government Accountability Office
                                      (GAO) audit reports in 2004 and 2006 disclosed that a significant number of
                                      unused tickets existed at the Department of Defense (DoD) and the
     Improved FAS                     Department of State (State) valued at over $100 million. Both agencies
      policies and                    sought FAS's assistance as the government's collection agent to seek
    procedures are                    refunds for over 85,000 unused or partially used tickets valued at nearly $56
                                      million during calendar years 2005 and 2006, based on information furnished
   needed to collect                  by the airlines.
  refunds for unused
     airline tickets.                 As a result of the GAO reports, we initiated a limited scope review of FAS's
                                      Audit Division and determined that although controls and procedures were
                                      generally adequate over administering receipts of unused airline tickets, the
                                      process for refund collections needed significant improvements. We found
                                      that the Audit Division was unable to identify the amount of refunds received
                                      and that it had not collected on the claimed amount of $56 million due from
                                      the airlines for DoD and State. Further, the $56 million amount was highly
                                      overstated because the majority of the data represented airline tickets that
                                      were found to be partially used but valued at full fare price. A serious
                                      problem faced by the Audit Division to collect funds on behalf of the
                                      government was that no historical database existed to ascertain the value of
                                      unused tickets purchased prior to June 2006. In addition, client agencies did
                                      not provide adequate documents to support a full claimed amount. As a
                                      result, the Audit Division had to place reliance on airline data for the value of
                                      partially used tickets. Since June 2006, however, the Audit Division has
                                      utilized an automated accounting system for administering unused airline
                                      tickets, yet it did not include any of the prior requests in the current system
                                      and has not posted all payments received.




6 Semiannual Report to the Congress
 Management Challenges



Contract Management (continued)

Another complicating obstacle facing FAS is that 3 of the 4 airlines involved
with the collection process are now in bankruptcy. Further, as the airlines
required research of their databases to confirm the remaining amounts, one
airline proposed charging the government a research fee ranging from
$75 to $100 per ticket. However, the Audit Division is opposed to paying the
fee. The Audit Division was also impeded in its collection efforts by the lack
of legal representation. Without a government attorney, legal issues and
settlement claims, such as the research fee, have remained unresolved.
This has prevented the Audit Division from collecting any amount due from
any of the three major bankrupt airlines, which represented 85 percent of the
claimed funds, or from the solvent airline.

We recommended that the Commissioner, FAS:

• Develop written policies and procedures addressing controls over receipts
  and collections of unused tickets, to include requiring airlines to provide
  adequate documentation supporting amounts less than originally
  requested.

• Account for prior requests in the current accounting system with resultant
  collection activity.

• Pursue collection efforts for unused airline tickets to include other
  alternatives through use of the Defense Finance and Accounting System
  and/or legal action on the outstanding claim from the non-bankrupt airline.

• Develop a feasible plan in conjunction with Office of General Counsel
  leading to finalizing settlements with the three bankrupt airlines.

The Commissioner agreed with all recommendations with the exception that
requiring consideration of other collection alternatives should be deleted
from the audit report due to recent developments regarding the $8.34 million
claim against the non-bankrupt airline. Because a settlement had not yet
been reached as of our receipt of the Commissioner's response, the
recommendation remained in the report.

Information Technology
GSA is in the process of replacing or upgrading a number of its legacy
information systems to improve performance and take advantage of
technological advances. Since GSA has had difficulty sharing usable data
between systems, many of the new IT projects are intended to go beyond
automating current business functions and to create real change in the way
that GSA does business. However, GSA systems development projects
have typically experienced significant schedule delays and cost overruns,
the need for frequent redesign, and a prolonged period of time in
development.


                                           April 1, 2007 – September 30, 2007 7
                                       Management Challenges



                                      Information Technology (continued)

                                      Alert Report on Security of GSA's Electronic Messaging Services and
                                      National Notes Infrastructure
                                      GSA's Electronic Messaging Services (GEMS) and National Notes
                                      Infrastructure (GNNI) provide the Agency with a valuable suite of tools
                                      including e-mail, electronic calendar, Web site development and
                                      maintenance, and database creation for sharing information and documents.
                                      GEMS is GSA's e-mail system (Lotus Notes) and the GSA Chief Information
                                      Officer (GSA-CIO) has overall management responsibility for GEMS. GSA
                                      Services and Staff Offices and Regions use approximately 8,000 Lotus
       Significant                    Notes databases for such activities as contract management, managing
     management,                      building construction, processing system helpdesk requests, tracking status
   operational, and                   of background investigations on employees and contractors, and maintaining
                                      personnel information. Our review focused on whether GSA has adequate
   technical control                  security controls to manage risks with GEMS and GNNI applications. We
   weaknesses exist                   found that significant management, operational, and technical control
    in GSA’s e-mail                   weaknesses have put at risk the security of essential information, services,
                                      and systems in the Agency.
      applications.
                                      Urgent matters regarding control weaknesses and resulting information
                                      security vulnerabilities with GEMS and GNNI prompted this alert report to
                                      the GSA-CIO. Vulnerabilities in access controls have not adequately
                                      restricted access to and modification of all systems. Also, we found that
                                      risks for GEMS and GNNI are not adequately considered through GSA's IT
                                      Security Program and certification and accreditation processes.

                                      To remediate management, operational, and technical security control
                                      weaknesses and ensure that GSA continues to benefit from the information
                                      sharing capabilities of GEMS and GNNI, we recommended that the
                                      GSA-CIO work closely with Services/Staff Offices/Regions to:

                                      • Inventory all GSA's Lotus Notes databases and applications and remove
                                        those that are outdated, including ones that lack necessary controls.

                                      • Develop policies and procedures clarifying roles and responsibilities for
                                        use and maintenance of GSA's National Notes Infrastructure, reviewing
                                        and configuring appropriate access controls.

                                      • Reevaluate system boundaries for GEMS and GNNI and strengthen
                                        specific technical controls.

                                      • Complete a comprehensive certification and accreditation that ensures
                                        that risks and controls are identified and documented.

                                      The GSA-CIO concurred with our findings and recommendations, and has
                                      initiated a remediation plan to address immediate control weaknesses.



8 Semiannual Report to the Congress
                      Management Challenges



                     Information Technology (continued)

                     FY 2007 Office of Inspector General FISMA Review of GSA’s
                     Information Technology Security Program
                     The Federal Information Security Management Act of 2002 (FISMA) requires
                     Federal agencies to develop, implement, and document an agency-wide
                     information security program. While GSA continues to improve the IT
                     Security Program, the conditions that we found during this review indicate
                     that management actions have not been fully effective in mitigating risks and
                     securing GSA systems. We found that GSA IT system security risks and
                     related controls are not comprehensively addressed for all applications, data
                     repositories, and services within various systems. Also, oversight of
                     contractor-supported systems needs to be more comprehensive.
    Lack of an       Additionally, opportunities exist to strengthen configuration management.
  implementation
                     GSA has taken steps to establish an inventory of systems, designate system
 plan and detailed   security roles and responsibilities, and incorporate National Institute for
inventory process    Standards and Technology (NIST) guidance. Since the implementation of
 have exposed the    FISMA, the GSA-CIO has taken steps to identify and reduce risks through
                     designations of additional management, operational, and technical controls
     Agency’s        outlined in GSA's IT security policy and procedures. Despite these efforts,
information assets   GSA's IT Security Program lacks an implementation plan and detailed
  to undue risks.    inventory process to ensure that risks for all applications, data repositories,
                     and services within systems are identified and mitigated.

                     GSA's oversight of contractor-supported systems needs to be more
                     comprehensive. The IT Security Program has not been effective in engaging
                     GSA management to consistently enforce policy and procedures. GSA
                     system security officials did not ensure that contractors performing support
                     had applied GSA’s IT security policy and procedures. Additionally, for all
                     systems reviewed this year, we identified deficiencies with contractor
                     personnel security. For example, for one system, 25 contractor employees
                     were given access before background investigations in contravention of GSA
                     policy. We have reported similar findings in the past.

                     Configuration management should be strengthened. We identified two areas
                     where improvements can be made. First, insecure configuration settings
                     were identified in system reviews of Web application security, database
                     security, and operating system security that could affect the confidentiality,
                     integrity, and availability of those systems. Second, Agency configuration




                                                                 April 1, 2007 – September 30, 2007 9
                                        Management Challenges



                                       Information Technology (continued)

                                       policy and procedures for handling unsuccessful login attempts and warning
                                       banners were conflicting and not in conformance with best practices.

                                       In our September 17, 2007 report, we recommended that the Chief
                                       Information Officer:

                                       • Develop an implementation plan to meet IT Security goals.

                                       • Improve management accountability by developing an inventory process
                                         for system owners.

                                       • Enhance oversight of contractor-supported systems by promoting
                                         compliance with GSA policy and establishing one central point for
                                         contractor background investigations.

                                       • Strengthen configuration management by addressing, in policy,
                                         unsuccessful login attempts and warning banners, and secure the Lotus
                                         Domino environment.

                                       • Assist managers in adopting performance measures consistent with
                                         GSA's IT Security Program.

                                       The Chief Information Officer concurred with the report findings and
                                       recommendations.

                                       To assess the effectiveness of GSA's IT Security Program for meeting the
                                       FISMA requirements, we based our results on separate audits of the
                                       following 4 systems: Region 8 Public Buildings Service (PBS) local area
                                       network (LAN); the Fleet Management System (FMS); GSAjobs; and
                                       Region 8 Federal Technology Service (FTS) LAN. The reports contain audit
                                       findings and recommendations. Each report is summarized below.

                                       • The Region 8 PBS LAN supports users across six states, incorporates
                                         Voice over Internet Protocol (VoIP), and was administered from regional
                                         offices in Denver, Colorado. During audit fieldwork, the Region 8 PBS
                                         LAN functions, positions, personnel, authorities, funds, equipment, and
                                         other resources were transferred from Region 8 to the Office of Enterprise
                                         Infrastructure within the GSA-CIO as part of the Agency's IT infrastructure
                                         consolidation initiative. Selected IT system security controls were tested
                                         for the Region 8 PBS LAN and were not working effectively in
                                         5 of 18 areas we reviewed. Security control areas include the NIST
                                         SP 800-53 families and Web application security. The implementation of
                                         security controls within these five areas was not consistent with GSA's
                                         policy and NIST requirements. We identified opportunities to improve
                                         security controls for configuration management, physical and
                                         environmental protection, personnel security, Web application security,


10 Semiannual Report to the Congress
 Management Challenges



Information Technology (continued)

  and awareness and training. The report contained four recommendations
  for the GSA-CIO and the Regional Administrator to reduce risk and
  enhance system security, and identified a weakness to be addressed in
  the audit of GSA's IT Security Program.

• FMS is an asset management tool used to track the life cycle of
  approximately 200,000 active vehicles from the moment of acquisition to
  vehicle disposal. The primary mission of FMS is to facilitate the overall
  management of the GSA Fleet and to generate financial interface records
  to update GSA financial systems. FMS includes a number of Web
  applications used for reporting mileage, identifying and reporting vehicles
  for sale, recording and managing logs of accidents and incidents, and
  generating and tracking vehicle requisitions submitted to the GSA
  Automotive Center. FMS is a contractor-operated Federal Acquisition
  Service (FAS) system providing centralized support that enables ten FAS
  regions within the United States, one region in Europe, and the FAS Office
  of the Chief Information Officer to provide detailed costs for Fleet support.
  Selected IT system security controls were tested for FMS and were not
  working effectively in 7 of 18 areas we reviewed. Security control areas
  include the NIST SP 800-53 families and Web application security. We
  identified opportunities to improve security controls in the areas of risk
  assessment, planning, system and communications protection, Web
  application security, access control, personnel security, and contingency
  planning. The implementations of security controls within these seven
  areas were not consistent with GSA's policy and NIST requirements,
  placing FMS at greater risk from malicious individuals and an insider
  attack. The report contained four recommendations to the Commissioner,
  FAS to enhance security for the Fleet Management System.

• GSAjobs is a Web application that contains two components: a human
  resources (HR) portion accessible by GSA HR professionals, and an
  applicant portion that is publicly available. GSAjobs contains the
  personally identifiable information (PII) of job applicants utilizing the
  system and interfaces with the Office of Personnel Management's (OPM)
  Web site to post vacancy announcements and to collect applicant
  information. GSA has defined PII as "any personal information that is
  associated with a unique identifier and can be accessed through that
  identifier." Its primary purpose is to automate the evaluation process of
  candidates in accordance with OPM and GSA defined requirements.
  GSAjobs is a contractor-provided solution that is owned and operated by
  Monster Government Solutions on behalf of the GSA Office of the Chief
  Human Capital Officer. The audit found that GSAjobs contains significant




                                           April 1, 2007 – September 30, 2007 11
                                        Management Challenges



                                       Information Technology (continued)

                                         security weaknesses and does not conform to the task order, which
                                         requires compliance with GSA's IT security policy and procedural
                                         guidance. We identified opportunities to reduce the risks of improper
                                         disclosure of applicant's privacy information through improved security
                                         controls in the areas of system and services acquisition, configuration
                                         management, access controls, identification and authentication, Web
                                         application security, and personnel security. Securing GSAjobs and
                                         ensuring the long term success of the system will require clear,
                                         enforceable, and monitored task order requirements, strong application
                                         controls, and personnel security practices consistent with Agency
                                         guidance and policy. The report contained four recommendations for
                                         improving system security.

                                       • The Region 8 FTS LAN supports users at the Denver Federal Center, and
                                         was administered from regional offices in Denver, Colorado. During audit
                                         fieldwork, the Region 8 FTS LAN functions, positions, personnel,
                                         authorities, funds, equipment, and other resources were transferred from
                                         Region 8 to the Office of Enterprise Infrastructure within the GSA-CIO as
                                         part of the Agency's IT infrastructure consolidation initiative. Selected IT
                                         system security controls were tested for Region 8 FTS LAN and were not
                                         working effectively in 4 of 18 areas reviewed. Security control areas
                                         include the NIST SP 800-53 families and Web application security. The
                                         implementation of security controls within these four areas was not
                                         consistent with GSA's policy and NIST requirements. We identified
                                         opportunities to improve security controls for configuration management,
                                         physical and environmental protection, personnel security, and awareness
                                         and training. The report contained three recommendations for the
                                         GSA-CIO and the Regional Administrator to reduce risk and enhance
                                         system security.

                                       Management Controls
                                       Multiple management controls and extensive supervisory reviews have been
                                       replaced, through streamlining efforts, by fewer and broader controls,
                                       making it essential that the remaining control processes be emphasized and
                                       consistently followed. Streamlined processes have helped GSA achieve its
                                       goal of serving customers more quickly and efficiently; however, the Agency
                                       is exposed to the risk of mismanagement and abuse if program officials do
                                       not ensure the faithful application of existing safeguards.




12 Semiannual Report to the Congress
                       Management Challenges



                      Management Controls (continued)

                      Review of Public Buildings Service's Delegations of Authority to Lease
                      Space
                      This review was conducted in response to concerns related to a delegated
                      leasing action by the Department of Homeland Security. The focus of the
                      review was to determine whether leasing actions that were performed by
                      customer agencies under delegations of authority from GSA were awarded
                      in accordance with applicable laws, regulations, and policies and
                      procedures.

                      Although GSA encourages all Federal agencies to use PBS as their leasing
                      agent for general-purpose space, GSA can delegate its leasing authority to
                      allow an agency to perform a specific leasing action without the assistance
                      of PBS personnel. In accordance with lease delegation procedures,
  Many delegated      delegated agencies are responsible for complying with all applicable rules,
                      laws, and regulations related to awarding leases. In addition to compliance
     leases had       with laws and regulations, the lease delegations have other restrictions,
    deficiencies,     including that (1) the annual rental not exceed prospectus limitations, and
including potential   (2) agencies provide PBS with award information on delegated leases.
     prospectus       We found that many of the leasing actions we reviewed, especially some
     violations,      large leasing actions, did not comply with all applicable policies, laws, and/or
 excessive rental     regulations. We reviewed 25 delegated lease procurements made from
                      FY 2001 through FY 2006. Eighteen (72 percent) had one or more
      rates, and      deficiencies. The deficiencies included potential prospectus violations,
  noncompliance       excessive rental rates and other lease costs, violations of delegated lease
   with delegated     authority, and inadequately documented lease files. For example, the
                      Department of Interior awarded a 20-year lease for construction of a
  lease authority.    140,000 square foot building. Although the base rental was under the
                      prospectus threshold ($1,990,000 in FY 2001), an additional $11.1 million in
                      tenant improvement work was added through two supplemental lease
                      agreements without going through the prospectus process. Also, the
                      Department of Defense awarded four sole source leases to a private
                      company that controls space on one of its bases. The leases have excessive
                      rental rates, payments for tenant improvements, and operating expenses in
                      comparison to the local market. The rental rates exceed the appraised
                      values by 28 to 32 percent. For the largest of these leases, the tenant
                      improvement work totaled $105 per square foot, while for other general
                      purpose leased office space we found tenant improvement work (above what
                      is provided in the lease) to be generally under $35 per square foot. Further,
                      for this same lease operating expenses increased by 52 percent and
                      included costs not directly reimbursable such as Payroll Engineer, Payroll
                      Secretary, Dues and Subscriptions, and Meals. In our opinion, the leasing
                      problems occurred primarily as a result of the customer agencies' lack of
                      expertise in performing lease procurements and because the agencies failed
                      to obtain assistance from GSA.



                                                                 April 1, 2007 – September 30, 2007 13
                                        Management Challenges



                                       Management Controls (continued)

                                       As a result, to prevent future violations of laws and policies as well as
                                       excessive leasing costs, we recommended that the Commissioner of PBS:

                                       • Establish threshold limits for the delegation of GSA's lease authority to
                                         other agencies.

                                       • Implement management controls over delegated leases that are
                                         commensurate with risks associated with the delegations.

                                       The Commissioner agreed with the report's recommendations.

                                       Alert Report on Procurement Irregularities Associated with the Hiring
                                       of Support Staff for the U.S. Marshals Service
                                       During a nationwide audit of Reimbursable Work Authorizations (RWAs), we
                                       identified evidence of procurement irregularities in GSA's National Capital
                                       Region that we brought to regional management's attention through a
                                       separate report. An RWA is a binding agreement between GSA and its
                                       customer to acquire such things as space alterations or overtime utilities
                                       required by the customer agency. The agreement is defined in the RWA by
                                       including a scope of services requested and a specific dollar amount
                                       authorized.

                                       The irregularities were associated with GSA's procurement of support staff
                                       on behalf of the U.S. Marshals Service (USMS) and included issuance of
                                       out-of-scope purchase orders, issuance of purchase orders after the
  Weak controls over                   commencement of work, and lack of competition without requisite
                                       justifications. Further, a lack of control over the process allowed the
   RWAs resulted in                    irregularities to occur when GSA accepted the RWAs without an identified
    procurement                        requirement, a defined scope, and a cost estimate. These RWAs also were
    deficiencies.                      accepted in advance of their use, and in certain cases crossed fiscal years.

                                       In the National Capital Region, customer agencies are served by specific
                                       Public Buildings Service Centers that provide comprehensive property
                                       management services, including the administration of RWAs. The District of
                                       Columbia Service Center (DC Services) is responsible for the USMS. The
                                       DC Services assisted the USMS in procuring administrative staffing for its
                                       headquarters facility from one contractor, totaling over $5 million, from FY
                                       2002 through FY 2006.

                                       The alert report was issued to identify how ineffective controls led to problem
                                       procurements involving all three parties (USMS, the contractor, and GSA).
                                       First, the USMS provided generically scoped RWAs and allowed contract
                                       employees to work in its facility without proper authority. Second, the
                                       contractor accepted out-of-scope purchase orders and sent contract
                                       employees to work without appropriate approval. Third, GSA held agency



14 Semiannual Report to the Congress
                         Management Challenges



                        Management Controls (continued)

                        funds, accepted RWAs without definite scopes, and issued purchase orders
                        against inappropriate contract vehicles (after work had already commenced).

                        One consequence of the ineffective controls was that the government was
                        vulnerable to paying too much for services. The contractor has a contract
                        under three different GSA Multiple Award Schedules. The three separate
                        Schedules are: Professional Engineering Services (PES) for such disciplines
                        as chemical, mechanical, and electrical engineering; Mission Oriented
                        Business Integrated Services (MOBIS) for management and consulting
                        services such as program management, program integration, and project
                        management; and Temporary Administrative and Professional Staffing
                        (TAPS) support services for such assistance as administrative and clerical
                        support for a maximum of 240 workdays. GSA issued purchase orders
                        against all three. GSA placed orders under the PES schedule contracts for
                        3 years to provide for a 'project manager' and 'junior project manager' to run
                        the USMS fitness center. The running of a fitness center does not fall within
                        the scope of service contemplated by the PES schedule. Next, GSA placed
                        orders under all three schedule contracts to provide for 'project managers' to
                        "coordinate and monitor the maintenance of the USMS offices at Crystal
                        Square 3", a leased facility. In reality, the contract employees hired under
                        these purchase orders performed handyman services. Handyman services
                        do not fall within the scope of service contemplated by either the PES or
                        MOBIS contracts. Further, the TAPS contract is supposed to provide
                        manpower up to a maximum of 240 days and the performance period was
                        well in excess of that parameter. When submitting its invoices, the
                        contractor attached daily work logs that delineated the tasks completed each
                        day by its employees, such as painting, moving boxes, and patching drywall.
                        However, these handyman-type tasks are not compatible with the
                        management-type services purchased, as described in the purchase orders.
                        Yet, the GSA approved these invoices for payment.

                        Because this is part of an ongoing audit, we did not have specific
                        recommendations at this time, but wanted to bring this to management's
                        attention while our work continues.

                        Review of the Travel and Transportation Management Division's Freight
                        Management Program
                        The Federal Property and Administrative Services Act of 1949 designated
  Lack of adequate      GSA as traffic manager for Federal agencies and the only agency authorized
controls restrict the   to negotiate with transportation carriers on behalf of civilian agencies. The
      Freight           Freight Management Program (FMP), within FAS, provides a framework for
                        fulfilling the domestic and international freight shipping requirements of
    Management          Federal agencies. Our audit objectives were to determine if the organization
Program’s ability to    ensures competitive rates that provide best value to the Federal user, and
 ensure best value.     agencies are remitting the Industrial Funding Fee (IFF) in an accurate,
                        complete, and timely manner.

                                                                  April 1, 2007 – September 30, 2007 15
                                        Management Challenges



                                       Management Controls (continued)

                                       We found the Travel and Transportation Management Division (Division)
                                       cannot ensure the IFF is remitted in an accurate, complete, and timely
                                       manner due to a lack of adequate controls over the reporting and remitting
                                       of sales data and revenue. In addition, management cannot effectively
                                       determine if it has achieved its organizational goal to provide best value to
                                       its customers because a majority of FMP's best value performance
                                       measures rely on sales and revenue data, which we found to be inaccurate
                                       and unsupportable. As most transportation transactions involve direct
                                       procurement between customer agencies and the Transportation Service
                                       Providers (TSPs), the Division must rely on its customers to accurately
                                       report the shipments and remit the IFF.

                                       The current system of collecting sales and revenue from Federal users has
                                       inherent weaknesses that prohibit the Division from securing accurate,
                                       complete, and current information to effectively manage its program. The
                                       Division has no enforcement capabilities to review Federal users' records
                                       and cannot track sales and revenue to an independent system or source.
                                       Currently, the Division is piloting a program to test the capability of the TSPs
                                       to track sales and remit the IFF. Shifting responsibility to the TSPs with
                                       proper controls in place may alleviate these weaknesses and increase
                                       usage of the Division's FMP.

                                       We recommended that the Acting Assistant Commissioner of the Office of
                                       Travel and Property Management:

                                       • Establish policies and procedures to ensure effective controls over the
                                         accuracy and timeliness in reporting and remitting of sales data and
                                         revenue.

                                       • Develop and implement measurable and verifiable performance
                                         assessments.

                                       Management generally concurred with the findings and recommendations.

                                       Review of the Heating Operation and Transmission District's
                                       Operations and Finances
                                       We conducted a review of GSA’s Heating Operation and Transmission
                                       District (HOTD), a steam and chilled water utility service to government and
                                       quasi-government customers in the National Capital Region. In FY 2005,
                                       HOTD serviced 76 customer organizations that occupied approximately
                                       50 million square feet. Our focus was to determine if HOTD operates and
                                       uses its assets economically, efficiently, and securely. We included a review
                                       of how HOTD determines the rate it bills its customers. Management was
                                       aware that HOTD has been operating at a loss, but the magnitude and
                                       underlying causes were not fully apparent. In FY 2005, HOTD operated at a
                                       loss of $20.3 million on revenue of $51.9 million.

16 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

We identified several areas of concern:

• HOTD's rate setting methodology was not designed to recover key costs
  and the current account structure is an impediment to analyzing costs.

• Anticipated energy savings from an investment in the plant were not
  achieved.

• The backup facility for the Central Plant was decommissioned in FY 2000
  and a strategy is needed for addressing this unused building and for
  providing a backup facility.

• There were several accounting issues that need to be addressed.

HOTD evaluates its customer billing rates on the basis of cost projections
that exclude certain operating expenses. The two primary exclusions are
general and administrative expenses and depreciation. One consequence of
this decision is that the HOTD organization regularly incurs a substantial
loss. The Agency’s financial system does not account for this organization
as a discrete entity, so the effort needed to compile the financial results is
considerable.

HOTD's investment in a cogeneration system has not resulted in the energy
savings planned to help fund that acquisition. The expectation was that the
cogeneration system would provide for all of the plant's electricity needs and
produce a surplus for sale back to the utility company. In fact, the plant
remains a net consumer of electricity. There are several contributing factors,
but ultimately the system has been operated at about 32 percent of its
theoretical availability and its performance variance from specification has
not been tested.

The West Plant facility, which was the backup facility for HOTD, is idle and
deteriorating and there is no long-term strategy in place to remedy this
condition. In addition, there is no established contingency plan to deal with
a full or partial plant shutdown.

Five of the six boilers used to generate steam at HOTD's Central Plant are
periodically powered by fuel oil as an alternative to natural gas. While not
the primary energy source, fuel oil does represent a significant cost. HOTD
recorded fuel oil expense of $2.1 million in FY 2005, accounting for
five percent of total utilities expense. Control over this asset is weak; the
risk that a fuel oil loss or shortage would go undetected is unacceptably
high.




                                           April 1, 2007 – September 30, 2007 17
                                        Management Challenges



                                       Management Controls (continued)

                                       Review of the financial aspects of HOTD's operations yielded several
                                       accounting weaknesses, including inappropriate accounting for energy
                                       conservation project depreciation expense, incorrect RWA type, lack of a
                                       discrete HOTD identifier, and lack of a business line cost allocation model.

                                       In our September 13, 2007 report we recommended to the Regional
                                       Administrator that these issues be addressed. Our recommendations
                                       include various accounting, procurement, and operational issues that should
                                       be addressed to improve HOTD's performance. Given the unique nature of
                                       the HOTD organization, financial system data needs to be adjusted to obtain
                                       a representative picture of HOTD financial performance. In particular, HOTD
                                       should recognize all general and administrative and depreciation expenses,
                                       correct the RWA type used, allocate expenses by business line, and
                                       consider treating the operation as one facility. HOTD should restore contract
                                       administration for the chilled water expansion/cogeneration project. It should
                                       develop a boiler operating plan that takes into account market conditions
                                       and relative efficiency of the equipment. A strategy is needed for the best
                                       use of the West Plant asset and a contingency plan devised for service
                                       disruption. Lastly, accounting for fuel oil should be in accordance with
                                       generally accepted accounting principles.

                                       The Regional Administrator concurred with the findings and the
                                       recommendations.

                                       Review of the Pacific Rim Region, Public Buildings Service, Golden
                                       Gate Office
                                       The Public Buildings Service, Golden Gate Office (GGO), a field office under
                                       the direction of the San Francisco Service Center in the Pacific Rim Region,
                                       is responsible for managing 5 government-owned buildings and 24 leased
                                       buildings. Our review objectives were to determine whether the GGO:
                                       (1) made prudent procurements in accordance with laws, regulations, and
                                       established policy and controls; and (2) effectively performed contract
                                       administration duties.

                                       We found that contract administration was generally effective and assured
                                       that the quality and quantity of goods and services received were what the
                                       government ordered for the majority of the audited items. However, we were
                                       unable to determine whether the government received adequate quality and
                                       quantity of services for janitorial services and procurements involving three
                                       sole source awards made under RWAs.

                                       Required monthly surveillance reports on two janitorial contracts were not
                                       done for the period March 2006 to September 2006. The reports assess the
                                       contractors' performance based on criteria identified in the Quality
                                       Assurance Surveillance Plan included in their contracts. The Quality



18 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

Assurance Surveillance Plan is to ensure the identification of unacceptable
performance with timely follow-up to correct deficiencies. Without the
preparation of surveillance reports, we were unable to determine if janitorial
services were performed at the levels required by the terms of the contract.

The contract files for three sole source procurements done under RWAs did
not contain adequate documentation in support of the government's
evaluation of the contractor's proposal for price reasonableness. The
Federal Acquisition Regulation (FAR) requires that documentation on price
reasonableness must be included in the file if only one offer is received in
response to a solicitation. Documentation such as the independent
government estimate is generally used to establish that the price for services
was fair and reasonable.

In addition, documentation for two of the three RWAs did not adequately
support the reason as to why only the incumbent contractor was considered
for the contract award. Again, FAR allows the contracting officer to solicit
from one source: (1) on the condition that purchases do not exceed the
simplified acquisition threshold of $100,000; and (2) if the contracting officer
determines that the circumstances of the contract action deem only one
source to be reasonably available. We found no evidence in the contract file
to support the need for sole sourcing to the incumbent vendor.

Our report to the Regional Administrator recommended that:

• Sole source awards must be adequately documented to support the
  government's justification for the absence of competition and its
  evaluation of fair and reasonable pricing.

• The GGO complete the required monthly surveillance reports for janitorial
  contracts to ensure performance quality levels are achieved.

The Regional Administrator concurred with the recommendations and steps
have been taken to ensure that the government receives the quality and
quantity of goods that were paid for sole source awards and janitorial
services.

Protection of Federal Facilities and Personnel
Providing a safe, healthful, and secure environment for over 1 million
workers and the visitors to over 8,700 owned and leased Federal facilities
nationwide is a major multifaceted responsibility of GSA. The increased
risks from terrorism have greatly expanded the range of vulnerabilities
traditionally faced by building operations personnel. In March 2003, the
Federal Protective Service (FPS) was transferred from GSA to the




                                           April 1, 2007 – September 30, 2007 19
                                        Management Challenges



                                       Protection of Federal Facilities and Personnel (continued)

                                       Department of Homeland Security (DHS). While FPS is no longer part of
                                       GSA, the Agency has a continual need to closely interact with security
                                       personnel due to GSA’s mission of housing Federal agencies. GSA and
                                       FPS/DHS operate under a Memorandum of Agreement for obtaining
                                       services such as basic security for buildings, contract guards, law
                                       enforcement, background suitability determinations for contractors (including
                                       child care center personnel), pre-lease security checks, occupant emergency
                                       plan support, and continuity of operations support. Ensuring that Federal
                                       employees have a secure work environment and that building assets are
                                       adequately safeguarded must remain a primary concern of GSA.

                                       Review of the Implementation of Homeland Security Presidential
                                       Directive 12
                                       Homeland Security Presidential Directive 12 (HSPD-12) mandates the
                                       establishment of a common standard for identification credentials to be used
                                       by all Federal employees and contractors for physical and logical access to
                                       Federally-controlled facilities and information systems. The National Institute
                                       of Standards and Technology published Federal Information Processing
                                       Standards Publication 201 (FIPS 201), Personal Identity Verification (PIV) of
                                       Federal Employees and Contractors that sets the standards and
                                       requirements for implementing the cards. The Office of Management and
                                       Budget (OMB) set deadlines for HSPD-12 implementation. The first major
                                       deadline, October 27, 2005, required all agencies to establish control
                                       objectives and a common identity proofing process, as well as the
                                       registration and issuance process, and security controls. The subsequent
                                       deadline of October 27, 2006, required all agencies to begin the issuance of
                                       PIV II compliant credentials. Additional deadlines, falling on October 27,
      Contracting                      2007 and October 27, 2008, require agencies to complete background
  difficulties and the                 investigations and issue PIV cards to all contractor personnel and
   lack of a detailed                  employees with 15 years or less of Federal service, and those employees
                                       with greater than 15 years of service, respectively.
    implementation
  plan impair GSA’s                    The GSA HSPD-12 Project Management Office (PMO) of the Office of the
     ability to meet                   Chief Information Officer was created to manage GSA's implementation of
                                       HSPD-12. In addition to the PMO, the GSA FAS launched the HSPD-12
        HSPD-12                        Managed Service Office (MSO) to use competitively selected contract
       milestones.                     vehicles to provide all project, acquisition, and financial management
                                       necessary for GSA's customer agencies to satisfy the OMB requirements.

                                       The objective of our review was to analyze whether GSA's actions underway
                                       are adequate to meet OMB requirements and timeframes for the
                                       implementation of HSPD-12 in accordance with FIPS 201, and, if not, what
                                       corrective actions are needed. This review disclosed that GSA has met
                                       OMB's first two deadlines requiring issuance of operating procedures by
                                       October 27, 2005, and the production of a PIV II compliant card by


20 Semiannual Report to the Congress
 Management Challenges



Protection of Federal Facilities and Personnel (continued)

October 27, 2006. GSA is also continuing to move forward in such aspects
of HSPD-12 implementation as processing employee and contractor
background investigations, developing plans for logical and physical access,
and updating its general HSPD-12 policies. However, we found that GSA
would likely not meet OMB's October 27, 2007 deadline that requires the
issuance of PIV II compliant cards to all contractors and employees with 15
years or less of Federal service. The PMO estimated that GSA will require
over 67,000 PIV II credentials by the October 2007 deadline, yet had only
issued 71 PIV II compliant cards as of March 1, 2007. We also found that
since the contract vehicle for the PIV II cards had been reopened for
competition as of the date of the report, with contract rollout in July 2007,
GSA would likely be unable to obtain the required number of PIV II cards
from the MSO contractor by the October 27, 2007 deadline. While waiting
for the new MSO contractor to come online, GSA plans to continue issuing
legacy GSA smart cards to its employees and contractors.

Other factors impacting GSA's ability to implement HSPD-12 include the lack
of a detailed HSPD-12 implementation plan and the absence of a centralized
database capturing GSA-wide contractor information. A PMO business plan
in FY 2006 became substantially obsolete once the decision was made to
use the MSO contractor. While the PMO has issued a GSA HSPD-12
Implementation Overview containing basic strategy for implementing
HSPD-12, as the new MSO contractor comes online and the technology for
physical access controls becomes better defined, a more detailed plan
needs to be developed.

As noted previously, the OMB memorandum requires agencies to issue
PIV cards to all applicable contractors by October 27, 2007. HSPD-12
contractor requirements were addressed in Federal Acquisition Regulation
revisions and GSA Chief Acquisition Officer instructions to all GSA
contracting associates. While the PMO estimates that there are
13,000 embedded contractors and 50,000 PBS contractors, there is no
centralized database that contains a record of all GSA contractors requiring
the level of physical and systems access that necessitates favorably
adjudicated background investigations and fingerprint checks. The PMO
raised concerns in this area and proposed the establishment of a contractor
identity management system, with mandatory enrollment for all current GSA
contractors. We agree with this proposal.




                                          April 1, 2007 – September 30, 2007 21
                                        Management Challenges



                                       Protection of Federal Facilities and Personnel (continued)

                                       Our August 13, 2007 report recommended that the Chief Information Officer
                                       take steps to ensure the successful implementation and management of
                                       HSPD-12 initiatives by:

                                       • Developing a detailed implementation plan outlining how GSA plans to
                                         implement HSPD-12 in its entirety.

                                       • Establishing a contractor identity management system, while expediting
                                         background investigations for embedded contractors.

                                       Management concurred with our recommendations. Subsequently, the
                                       Agency acknowledged that the deadline will not be met and is working
                                       toward a revised timeframe.




22 Semiannual Report to the Congress
Promoting and Protecting Integrity



   GSA is responsible for providing working space for one million Federal
   employees. The Agency also manages the transfer and disposal of excess
   and surplus real and personal property and operates a governmentwide
   service and supply system. To meet the needs of customer agencies, GSA
   contracts for billions of dollars worth of equipment, supplies, materials, and
   services each year. We conduct reviews and investigations in all these
   areas to ensure the integrity of the Agency’s financial statements, programs,
   and operations, and that the taxpayers’ interests are protected. In addition
   to detecting problems in these GSA programs and operations, the OIG is
   responsible for initiating actions to prevent fraud, waste, and abuse and to
   promote economy and efficiency. When systemic issues are identified
   during investigations, they are shared with GSA management for appropriate
   corrective actions. During this period, criminal, civil, and other monetary
   recoveries totaled more than $10.7 million.

   Significant Civil Actions
   IBM and PriceWaterhouseCoopers Settle Government Claims that They
   Engaged in Kickbacks and Other Prohibited Business Arrangements
   In two separate agreements signed on July 30, 2007, International Business
   Machines Corporation (IBM) agreed to pay $2,972,039 and
   PriceWaterhouseCoopers, LLP agreed to pay $2,316,662 to settle their
   potential civil False Claims Act liability relating to allegations made by private
   individuals in a qui tam case that the two companies, in their role as
   information technology systems integrators, defrauded the government. The
   government's investigation determined that the two companies were involved
   in various undisclosed alliance relationships with hardware and software
   manufacturers, and that the financial transactions based on those
   relationships constituted illegal kickbacks and conflicts of interest that
   violated the companies' GSA contracts, as well as the Federal Acquisition
   Regulation.

   $1.8 Million Civil and Criminal Monetary Recovery
   A joint investigation with the U.S. Naval Investigative Service and the
   Defense Contract Audit Agency was initiated when it was alleged that The
   Sigmon Group, LLC (TSG) submitted false and fraudulent invoices to the
   U.S. Navy for work completed under various task orders issued by the U.S.
   Navy through its multiple award schedule contract with GSA. The
   investigation revealed that the president, senior vice president, and chief
   financial officer of TSG were involved in a scheme to inflate labor hours and
   labor charges on several U.S. Navy task orders. On April 5, 2007, the
   president of TSG executed a negotiated civil settlement on behalf of TSG to
   resolve their civil liability by agreeing to pay $413,170 to the government.
   On August 1, 2007, the TSG President was sentenced to 5 years probation,
   ordered to pay criminal restitution in the amount of $642,073, and ordered to
   pay a criminal fine of $750,000 for filing false claims.




                                               April 1, 2007 – September 30, 2007 23
                              Promoting and Protecting Integrity



                                       Significant Criminal Actions and Investigations
                                       Former Regional FTS IT Director Pleads Guilty to Accepting Bribes
                                       An investigation was initiated when it was alleged that an employee of a
                                       government contractor, who was a former GSA Regional Office FTS deputy
                                       director, was submitting fraudulent claims to GSA under a basic ordering
                                       agreement. The investigation determined that the former deputy director
                                       conspired with the former GSA Regional Office FTS IT director to have task
                                       orders directly awarded to the contractor and inflate task orders with
  Former regional IT
                                       fraudulent other direct costs. Pursuant to this scheme, the investigation
   director guilty of                  disclosed that the former FTS director received $156,550 from the contractor
  accepting bribes.                    employee.

                                       In addition, the investigation determined that the former director created
                                       completely fictitious task orders and directly awarded them to the contractor
                                       for which no work was to be performed. The former director and the
                                       contractor agreed to use the money GSA paid the contractor for these task
                                       orders to fund the former director's future employment with the contractor's
                                       company once he retired from GSA, with any remaining funds going to the
                                       contractor.

                                       Federal Employee Pleads Guilty to Bribery
                                       The former FTS director pled guilty to accepting bribes, conspiracy to submit
                                       false claims, and aiding and abetting. He was sentenced to 1 year and
                                       3 months incarceration, 3 years supervisory release, and ordered to pay
                                       restitution in the amount of $1,020,087. The contractor employee and
                                       former GSA FTS deputy director pled guilty to bribing a public official,
                                       conspiracy to submit false claims, and aiding and abetting. He was
                                       sentenced to 5 months incarceration, 3 years supervisory release and
                                       ordered to pay restitution in the amount of $385,527.

                                       A joint investigation with the Federal Bureau of Investigation (FBI), Veterans
                                       Administration (VA) OIG, VA Police Service, and the Internal Revenue
                                       Service (IRS) Criminal Investigative Division disclosed that a VA employee
                                       used his position to obtain supplies and services through two companies in
                                       which he had financial interests. Both companies performed construction
                                       contracts at the VA Medical Center (VAMC). Specifically, the investigation
                                       found that the employee, in his official capacity, steered contracts to two
                                       companies in which he had a financial interest, benefited personally by
                                       receiving things of value for himself and others from the two companies, and
                                       made false statements to Federal law enforcement officials regarding his
                                       connection with the two companies. Also, he filed false U.S. Individual
                                       Income Tax Returns, as he failed to include income he received from the
                                       two companies on his tax returns; and misused his GSA purchase credit
                                       card by purchasing supplies and services for the VAMC.




24 Semiannual Report to the Congress
                       Promoting and Protecting Integrity



                          Significant Criminal Actions and Investigations (continued)

                          As a public official, the VA employee received things of value for himself and
                          others from the two companies including, but not limited to, the payment of
                          his mortgage, automobile insurance, credit card and various other personal
                          expenses in return for violating his official duties at the VA. He pled guilty
                          and is scheduled to be sentenced in December 2007.

                          Former Federal Sales Representative and Former National Guard
                          Employee Plead Guilty to Conspiracy to Commit Bribery
                          A joint investigation with the FBI and the Department of Defense
                          Investigative Agency was initiated when it was alleged that a former Federal
                          sales representative of Oki Data, Inc. (Oki), the president of Netfusion, Inc.
                          (Netfusion), and a former national guardsman might have been involved in a
                          scheme of money laundering, bribery, and conspiracy.

                          The investigation revealed that the Oki sales representative conspired with a
                          former colonel in the Army National Guard to sell Oki printers to the National
                          Guard through Netfusion. The president of Netfusion, agreed to make
                          payments of approximately $12,000 each to a former guardsman and ex-
                          sales representative to secure the sale of the printers. The guardsman
                          signed a purchase commitment in the amount of $261,414 on behalf of the
                          National Guard to purchase 108 printers and had them distributed
                          throughout the country.

                          On June 20, 2007, the former guardsman pled guilty to conspiracy to commit
                          bribery and was sentenced to 10 days incarceration, 2 years supervised
                          probation and ordered to pay restitution in the amount of $36,000. On
                          July 11, 2007, the former Federal sales representative of Oki pled guilty to
                          conspiracy to commit bribery and was sentenced to 2 days incarceration,
                          6 months home confinement and ordered to pay restitution in the amount of
                          $36,000. On September 20, 2007, the president of Netfusion pled guilty to
                          conspiracy to commit bribery and accepting kickbacks and is scheduled to
                          be sentenced on December 17, 2007.

                          Army National Guard Employee Pleads Guilty to Acts Affecting a
                          Personal Financial Interest
   National Guard         A joint investigation with the Defense Criminal Investigative Service was
                          initiated when it was reported that a retired Washington Army National Guard
 employee directs         (WAANG) employee returned to work as a consultant to a contractor to
 millions of dollars      whom he had awarded contracts while he was a Guard employee. The
in GSA task orders        employee had served as the Program Director for WAANG's Distance
                          Learning Program (DLP). The investigation determined that while the
  to a company in         employee was with the WAANG, he directed millions of dollars in GSA task
   which he had a         orders for work connected to DLP. He pled guilty to acts affecting a personal
                          financial interest and is scheduled to be sentenced in November 2007. He
                          faces up to 5 years of imprisonment and a possible fine of $250,000.



                                                                     April 1, 2007 – September 30, 2007 25
                              Promoting and Protecting Integrity



                                       Significant Criminal Actions and Investigations (continued)

                                       Administrator Investigated for Sole Source Contract
                                       An anonymous source provided documents indicating that the Administrator,
                                       GSA, personally awarded a sole source contract to a friend who was then
                                       the President, Public Affairs Group, Inc., Washington, DC. The investigation
                                       confirmed that the Administrator personally awarded a sole source contract
                                       for $20,000 for public relations services at her own initiative and without
                                       consulting any contracting or legal professionals on her staff. It was
                                       determined that the friend had a prior personal and extensive professional
                                       relationship with her prior to her appointment as the Administrator of GSA.
                                       She minimized the extent of their professional relationship during her GSA
                                       OIG investigative interview.

                                       GSA contracting officials and staff of the GSA Office of General Counsel
                                       reviewed the contract subsequent to the Administrator's award, and
                                       determined that it did not comply with existing laws and regulations
                                       governing such procurements. Specifically, the contract was awarded
                                       without required competition or, in the alternative, without the required sole
                                       source justification. As a result, GSA terminated the contract for
                                       convenience before any monies were paid. Even after the contract was
                                       terminated on August 4, that very same day the email exchange between
                                       Administrator Doan and Mr Phelps, GSA’s Chief of Staff, showed the matter
                                       was far from over. After informing Administrator Doan of the upcoming
                                       termination, Mr. Phelps went on to say, “I will simply tell Edie’s folks [ i.e.,
                                       Edie Fraser’s staff at the Public Affairs Group] that we have more work to do
                                       on our end before moving forward.” Administrator Doan’s response was,
                                       “Okay. Now, for the next step: the SOW [statement of work]. Who is doing
                                       that work, Felipe [Mendoza, of GSA] or Edie?” (source: Statement of Brian
                                       D. Miller before the Committee on Oversight and Government Reform,
                                       United States House of Representatives, March 28, 2007.)

                                       Because the Administrator's conduct in this matter may indicate possible
                                       violations of Federal ethics regulations for failing to act impartially and
                                       creating the appearance of providing preferential treatment, and her conduct
                                       also may indicate possible violations of Federal procurement regulations
                                       requiring competition in the award of contracts, a formal Report of
                                       Investigation was provided to the White House for consideration of
                                       administrative action. The White House has the matter under review.

                                       GSA Contractor Pleads Guilty to Conspiracy
   Kickback scheme                     An investigation was initiated when the president of PM Services Company
   uncovered in GSA                    (PMS) reported that she fired an employee upon learning that he had
       building                        secured a job with one of her competitors and may have violated the
                                       Anti-Kickback Act while under her employment. She stated that information
     management                        left on the employee's desk and laptop computer indicated that he was
       services.                       receiving check payments from a subcontractor used by PMS.


26 Semiannual Report to the Congress
                Promoting and Protecting Integrity



                    Significant Criminal Actions and Investigations (continued)

                    The investigation disclosed that the employee was receiving payments from
                    various subcontractors used by PMS. A Maryland-based contractor's bank
                    records showed payments for the same amounts listed in the employee's
                    laptop computer. The contractor confessed to paying the employee
                    kickbacks in exchange for work, and stated that from 2000 through 2003 he
                    paid $45,835 in kickbacks in exchange for work in GSA facilities. On May
                    22, 2007, he pled guilty to conspiracy to commit mail fraud and is awaiting a
                    sentencing date.

                    The employee's laptop computer also showed that similar amounts were
                    listed for two other companies conducting business through PMS. The
                    owner of Applied Power Group, Inc. was confronted and admitted to paying
                    the employee $117,000 in kickbacks from June 2001 through July 2003 in
                    exchange for work. On July 12, 2007, he pled guilty to conspiracy, aiding
                    and abetting. The owner of Precision Mechanical Inc. also admitted to
                    paying $175,330 in kickbacks from December 2000 through July 2003 in
                    exchange for work. On July 25, 2007, she pled guilty to conspiracy, aiding
                    and abetting. A sentencing date has not been set. A criminal investigation
                    involving other GSA contractors involved in this scheme is continuing.

                    Two GSA Contractor Employees Plead Guilty to Defrauding the
                    Government
   Substandard
                    A joint investigation with the Defense Criminal Investigative Service and the
    computer        Department of Energy OIG was initiated when it was reported that eGlobe
   components       Solutions, Inc. (eGlobe) might have been supplying substandard computer
                    components to the Department of the Navy under a GSA contract. The
   provided to
                    investigation revealed that two employees affiliated with eGlobe conspired to
government buyers   secure contracts with the government for genuine Sun Microsystems and
on GSA contracts.   Cisco Systems computer and communications networking equipment.
                    Instead of delivering genuine products, eGlobe delivered products that were
                    counterfeit, altered, and/or not warranted by the manufacturer. The
                    estimated value of the fraudulently secured government contracts is
                    approximately $788,875. One of the employees pled guilty to conspiracy to
                    defraud the government and was sentenced to 2 years probation, 200 hours
                    of community service and ordered to pay a fine of $1,000 and restitution in
                    the amount of $4,351. The other employee pled guilty to defrauding the
                    government and is awaiting sentencing.

                    Former Vice President of Communications Company Pleads Guilty to
                    Social Security Fraud
                    An investigation was initiated when a referral from DCAA alleged that
                    Communication Technologies, Inc. (COMTEK) engaged in a pattern of
                    defective pricing. It was alleged that COMTEK was inflating its Overhead




                                                              April 1, 2007 – September 30, 2007 27
                              Promoting and Protecting Integrity



                                       Significant Criminal Actions and Investigations (continued)

                                       and General Administrative rates, which included an unallowable cost to
                                       supplement an employee's salary and expenses, concealing the outside
                                       income from the Social Security Administration. The unallowable cost was
                                       subsequently submitted to GSA and DCAA as an adequate cost rate.

                                       The investigation revealed that COMTEK's former vice president, president,
                                       and comptroller conspired in a scheme whereby two separate bank accounts
                                       were opened under the comptroller's name with the former vice president as
                                       an authorized user. It was disclosed that the comptroller's salary was
                                       inflated by $250,000 per annum so that a portion of his salary
                                       (approximately $150,000 per annum) could be disbursed to the former vice
                                       president to avoid disclosing outside income to the Social Security
                                       Administration. The former vice president pled guilty to social security fraud
                                       and was sentenced to 1 year and 6 months incarceration, 3 years probation
                                       and ordered to pay restitution in the amount of $236,000. A criminal
                                       investigation into the business practices of COMTEK's president and
                                       comptroller is continuing.

                                       Telecommunications Fraud
                                       The OIG continues to be a principal participant in the New York Electronic
                                       Crimes Task Force (NYECTF), which has been investigating
                                       telecommunications fraud primarily involving Federal facilities within the New
                                       York metropolitan area. GSA is the principal provider of telecommunications
                                       services for these facilities. Other NYECTF principal participants include the
                                       Secret Service, Department of Defense, Department of Justice, New York
                                       City Police, and telecommunications industry representatives.

                                       A fraud investigation was initiated when Alltel Communications, Inc. (Alltel)
                                       disclosed to members of the NYECTF that an individual was engaged in a
                                       fraudulent telecommunications activity known as "social engineering." The
                                       investigation found that the individual misrepresented himself as an Alltel
                                       customer service representative and fraudulently obtained personal account
                                       information from at least 29 separate customer service accounts. After
                                       obtaining the victims' account information, he opened additional phone lines
                                       and obtained approximately 25 mobile phone handsets under the names of
                                       these victims, and had them shipped to his residence. The individual pled
                                       guilty to conspiracy to commit mail fraud and aggravated identity theft, and
                                       was sentenced to 11 years and 2 months incarceration, 4 years supervisory
                                       release and ordered to pay restitution in the amount of $429,597.

                                       A fraud investigation disclosed that the owner of a T-Mobile dealer and six of
                                       his employees were involved in a scheme whereby they fraudulently
                                       obtained the identities of T-Mobile cellular telephone customers and then




28 Semiannual Report to the Congress
                     Promoting and Protecting Integrity



                        Significant Criminal Actions and Investigations (continued)

                        used this information to illegally obtain, without the consent or knowledge of
                        the victims, large numbers of mobile handsets from T-Mobile. The owner
                        pled guilty to conspiracy to commit wire fraud, conspiracy to commit mail
                        fraud, and aggravated identity theft, and was sentenced to 7 years
                        incarceration, 4 years supervisory release and ordered to pay restitution in
                        the amount of $400,000. Of the six employees, two pled guilty to conspiracy
                        to commit mail fraud and are awaiting sentencing; two pled guilty to
                        conspiracy to commit wire fraud and aggravated identity theft and are
                        awaiting sentencing; one pled guilty to wire fraud, fraud with an access
                        device and destruction of records and is awaiting sentencing; and one was
                        sentenced to 1 year deferred prosecution.

                        In a previously reported fraud investigation involving Money Gram
                        International, the last of eight individuals was sentenced during this reporting
                        period. The investigation disclosed that this individual conspired with seven
                        others to make fraudulent requests to Money Gram for wire transfers of
                        funds to various check-cashing centers. The individual pled guilty to wire
                        fraud and was sentenced to 5 years probation and ordered to pay restitution
                        in the amount of $30,000.

                        GSA Contractor Pleads Guilty to Time and Attendance Fraud
                        An investigation was initiated when it was reported that payroll records
GSA contractor          pertaining to an employee of Strategic Staffing, Inc. (GSA contractor) working
                        at the Foley Square Building appeared to be inaccurate. The investigation
guilty of altering      disclosed that the employee altered and inflated his time and attendance
  documents.            sheets by changing the hours listed on the sheets that had previously been
                        reviewed and signed by the approving GSA official. He then faxed the
                        altered sheets to the contractor, who obtained reimbursement from GSA.
                        Pursuant to a plea agreement, the employee was charged with making
                        demands against the United States and was sentenced to 2 years probation
                        and ordered to pay restitution in the amount of $24,510.

                        Individual Pleads Guilty to Conspiracy and Theft of Government
                        Property
                        An investigation was initiated when it was reported that a GSA employee
                        was seen stealing property from the Northern Distribution Center (NDC).
                        The employee was seen removing a box of survival knives (valued at
                        $3,000) from the secured area of the NDC without the proper paperwork. An
                        additional inventory revealed that utility tools and folding knives (valued at
                        $190,957) were also missing. The investigation revealed that an individual
                        was illegally obtaining these items from the employee and then selling them
                        for his own benefit. He pled guilty to conspiracy and theft of government
                        property and was sentenced to 6 months house arrest, 5 years probation
                        and 250 hours community service, on each count, to be served concurrently.
                        He was also ordered to pay restitution in the amount of $152,687.


                                                                    April 1, 2007 – September 30, 2007 29
                              Promoting and Protecting Integrity



                                       Significant Criminal Actions and Investigations (continued)

                                       GSA Contractor Employees Plead Guilty to Conspiracy and Theft of
                                       Government Property
       Contractor                      An investigation revealed that 5 former employees of TMI Management
                                       Systems, Inc., GSA Eastern Distribution Center (EDC) were stealing
   employees caught                    government property valued at approximately $311,000 from the GSA EDC
   in theft scheme at                  and then selling the property on eBay and at local flea markets. Three of
       GSA facility.                   the employees pled guilty to conspiracy and theft of government property.
                                       One was sentenced to 6 months imprisonment, 2 years probation, and
                                       ordered to pay restitution in the amount of $311,822. Another was
                                       sentenced to 4 months home confinement, 3 years probation, 100 hours of
                                       community service, and ordered to pay a fine in the amount of $1,000. The
                                       last employee was sentenced to 1 year imprisonment, 3 years probation and
                                       ordered to pay restitution in the amount of $115,000. Charges are pending
                                       for the other two employees.

                                       Former GSA Employee Pleads Guilty to Theft of Government Property
      Public official                  An investigation was initiated when a former GSA employee refused to
                                       return his GSA identification and BlackBerry wireless device upon leaving
      sentenced for                    service with GSA. The employee was terminated from GSA for being absent
         stealing                      without leave and providing false information in connection with requests for
       government                      sick leave. Several attempts were made through his attorney to recover the
                                       property. Agents executed an arrest warrant and seized the BlackBerry. He
        property.                      pled guilty to theft of government property and was ordered to pay a fine.

                                       GSA Voyager Fleet Charge Card (Fleet Card) Abuse
                                       The GSA OIG has an ongoing proactive investigative project to identify and
                                       investigate fraud associated with the misuse of GSA-issued Voyager Fleet
                                       charge cards (Fleet cards). During this period, 16 individuals pled guilty, 11
                                       individuals were indicted, and 5 individuals were arrested in connection with
                                       cases arising out of Fleet card investigations.

                                       • A joint investigation with the Amtrak OIG and Immigration and Customs
                                         Enforcement was initiated when it was reported that a Fleet card issued to
                                         an Amtrak employee was being used to make multiple same day fuel
                                         purchases. The employee was terminated. Video surveillances captured
                                         the fraudulent use of the card by the former employee as well as two gas
                                         station attendants. The former employee pled guilty to theft charges and
                                         was sentenced to 6 months incarceration and 3 years probation and was
                                         ordered to pay $47,255 in restitution. The attendants both pled guilty to




30 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Criminal Actions and Investigations (continued)

     theft of government property and are scheduled to be sentenced in
     November.

   • A joint investigation with the Amtrak OIG determined that an Amtrak
     employee was making unauthorized fuel charges using eight Fleet cards
     assigned to Amtrak. It was found that multiple same day fuel purchases
     were made on several Amtrak vehicles leased through the GSA fleet
     management program. The employee admitted to using the Fleet cards
     to fuel his own personal vehicle and the vehicles of several acquaintances
     by accepting cash for half the purchase amount of each fuel transaction.
     He pled guilty to theft charges and was sentenced to 6 months
     incarceration, 1 year supervisory release and ordered to pay restitution in
     the amount of $16,916.

   • An investigation was initiated when it was reported that a Fleet card
     assigned to a vehicle leased to the Mid-Atlantic Naval Facility was
     reported stolen. The investigation revealed that the individual who stole
     the card used it to make multiple, same day purchases of gasoline and
     then allowed two other individuals use of the card. The individual pled
     guilty to theft charges and was sentenced to 2 years probation,
     10 hours of community service and ordered to pay restitution of $500 and
     a fine of $1,000.

   • A joint investigation with a local government determined that an employee
     of the Naval Air Station Willow Grove (NASWG) used a Fleet card
     assigned to NASWG to fuel two privately owned vehicles and vehicles
     owned by other individuals. He pled guilty to theft charges and was
     sentenced to 2 years probation and ordered to pay a fine in the amount of
     $1,374.

   • An investigation was initiated when it was reported that an individual was
     using a Fleet card assigned to a GSA vehicle leased by the U.S. Naval
     Academy's Public Works Transportation Division to make multiple gas
     purchases on the same day. He pled guilty to theft charges and was
     sentenced to 2 years supervised probation and ordered to pay restitution
     in the amount of $5,021.

   • A joint investigation with the Amtrak OIG determined that a former Amtrak
     employee was making unauthorized fuel charges using a Fleet card
     assigned to a GSA vehicle leased by Amtrak. The investigation disclosed
     multiple same day transactions and fuel purchases in excess of the
     vehicle's fuel capacity. He pled guilty to theft charges and agreed to pay
     restitution in the amount of $3,000.




                                             April 1, 2007 – September 30, 2007 31
                              Promoting and Protecting Integrity



                                       Significant Criminal Actions and Investigations (continued)

                                       • A joint investigation with the Department of Interior OIG determined that a
                                         police officer stole a Fleet card assigned to his employer, the Fort Belknap
                                         Tribal Police Department in Montana. He made unauthorized fuel charges
                                         using the stolen Fleet card for fuel purchases totaling over $2,265. He
                                         pled guilty to theft charges on July 12, 2007. Sentencing is pending.

                                       • An investigation was initiated when it was reported that a Fleet card
                                         assigned to the 75th Rangers Regiment, U.S. Army at Fort Lewis,
                                         Washington was being used to make multiple same day fuel purchases.
                                         Video surveillances captured the fraudulent use of the card by an E-5
                                         sergeant who admitted to using the card to fuel his personal vehicle. The
                                         sergeant pled guilty to theft charges and received punishment of a
                                         reduction in rank and 45 days confinement.

                                       • An investigation was initiated when it was reported that multiple fuel and
                                         miscellaneous purchases were occurring several times a day on a Fleet
                                         card assigned to two vehicles leased to the Arizona Army National Guard.
                                         Video surveillance captured the fraudulent use of the card by a
                                         guardsman, who purchased food, cellular phones, telephone calling cards,
                                         and gasoline. He pled guilty to theft of government monies for
                                         unauthorized personal purchases and was sentenced on September 6,
                                         2007 to 2 years supervised probation and ordered to pay restitution in the
                                         amount of $25,000.

                                       • An investigation was initiated when it was reported that multiple, same
                                         day purchases of gasoline were being made on a Fleet card assigned to
                                         the Navy Public Works located in Washington, DC. Video surveillance
                                         captured the use of the stolen Fleet card by an individual fueling multiple
                                         non-government vehicles. He pled guilty to theft charges and agreed to
                                         pay $17,611 restitution.

                                       • An investigation was initiated when it was reported that multiple fuel
                                         charges were being made on a Fleet card assigned to the Marine Air
                                         Group, Naval Air Station, Atlanta, Georgia. Video surveillance captured
                                         the use of the stolen Fleet card by three individuals. One individual pled
                                         guilty to theft charges and fraud and was sentenced to 3 years probation.
                                         Another individual pled guilty to theft charges and carrying a concealed
                                         weapon, and was sentenced to 1 year incarceration. The other individual
                                         was a first-time offender and was placed in a pre-trial diversion program.

                                       • An investigation was initiated when it was reported that there was
                                         possible fraudulent use of a Fleet card assigned to the U.S. Army, Fort
                                         Lewis, Washington. The investigation found that a private first class used
                                         the card to purchase fuel for his personally owned vehicle. He was found
                                         in violation of Article 92 (Uniformed Code of Military Justice-Failure to
                                         Obey an Order or Regulation) and received 7 days extra duty.


32 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Criminal Actions and Investigations (continued)

   • An investigation was initiated when it was reported that unleaded fuels
     and other non-fuel items were being purchased with a Fleet card assigned
     to a diesel engine vehicle used by the U.S. Army, Fort Lewis, Washington.
     The investigation found that three individuals were fraudulently using the
     card. Two of the soldiers pled guilty to unauthorized use of the Fleet card
     and each forfeited $1,458 in total salary, while the other soldier had the
     charges against him dropped because he was being dismissed from duty
     for drug charges.

   Individual Sentenced for Making Counterfeit Fleet Cards
   An ongoing investigation by a Federal/State law enforcement task force of
   fraudulent use of Fleet cards had previously discovered that 10 men used
   federally-issued cards to fraudulently purchase large amounts of fuel in
   South Florida. These men were sentenced in a prior reporting period. The
   last individual involved in this organized scheme produced the counterfeit
   Fleet cards used to steal and sell the stolen fuel. On June 21, 2007, she
   was sentenced to 5 years in state prison, 5 years probation and ordered to
   pay court costs.

   Suspension and Debarment Initiative
   GSA has a responsibility to ascertain whether the people or companies they
   do business with are eligible to participate in federally-assisted programs
   and procurements, and that they are not considered “excluded parties.”
   Excluded parties are individuals and companies debarred, suspended,
   proposed for debarment, or declared ineligible to receive contracts by a
   Federal agency. The Federal Acquisition Regulation authorizes an agency
   to suspend or debar individuals or companies for the commission of any
   offense indicating a lack of business integrity or business honesty that
   directly affects the present responsibility of a government contractor or
   subcontractor. The OIG has made it a priority to process and forward
   referrals to GSA, so GSA can timely ensure that the government does not
   award contracts to individuals or companies that lack business integrity or
   honesty.

   During this reporting period, the OIG made 71 referrals for consideration of
   suspension/debarment to the GSA Office of Acquisition Policy. GSA issued
   47 suspension and debarment actions based on current and previous OIG
   referrals.

   Integrity Awareness
   The OIG presents Integrity Awareness Briefings nationwide to educate GSA
   employees on their responsibilities for the prevention of fraud and abuse and
   to reinforce employees’ roles in helping to ensure the integrity of Agency
   operations.



                                             April 1, 2007 – September 30, 2007 33
                              Promoting and Protecting Integrity



                                       This period, we presented 33 briefings attended by 648 regional and Central
                                       Office employees. These briefings explain the statutory mission of the OIG
                                       and the methods available for reporting suspected instances of wrongdoing.
                                       In addition, through case studies, the briefings make GSA employees aware
                                       of actual instances of fraud in GSA and other Federal agencies and thus
                                       help to prevent their recurrence. GSA employees are the first line of
                                       defense against fraud, abuse, and mismanagement. They are a valuable
                                       source of successful investigative information.

                                       Hotline
                                       The OIG Hotline provides an avenue for employees and other concerned
                                       citizens to report suspected wrongdoing. Hotline posters located in
                                       GSA-controlled buildings encourage employees to use the Hotline. We also
                                       use our FraudNet Hotline platform to allow Internet reporting of suspected
                                       wrongdoing. During this reporting period, we received 1,407 Hotline
                                       contacts. Of these contacts, 219 Hotline cases were initiated. In 117 of
                                       these cases, 15 referrals were made to GSA program officials for review and
                                       action as appropriate, 38 cases were referred to other Federal agencies for
                                       follow up, 44 were referred for OIG criminal/civil investigations or audits, and
                                       20 did not warrant further review.




34 Semiannual Report to the Congress
                 Governmentwide Policy Activities



                    We regularly provide advice and assistance on governmentwide policy
                    matters to the Agency, as well as to other Federal agencies and to
                    committees of Congress. In addition, as required by the Inspector General
                    Act of 1978, we review existing and proposed legislation and regulations to
                    determine their effect on the economy and efficiency of the Agency’s
                    programs and operations and on the prevention and detection of fraud and
                    mismanagement. Because of the central management role of the Agency in
                    shaping governmentwide policies and programs, most of the legislation and
                    regulations reviewed invariably affect governmentwide issues in areas such
                    as procurement, property management, travel, and government
                    management and information technology systems.

Interagency         We participated on a number of interagency committees and working groups
                    that address cross-cutting and governmentwide issues:
Committees and
Working Groups      • The Inspector General (IG) is the vice-chair of the National Procurement
                      Fraud Task Force (NPFTF) established by the Department of Justice
                      (DOJ). In addition to DOJ, OIGs and other Federal law enforcement
                      agencies are full participants. The purpose of the task force is to promote
                      the early detection, prevention, and prosecution of procurement fraud
                      associated with increased contracting activity for national security and
                      other government programs. The task force will focus resources to
                      increase criminal enforcement in areas of procurement fraud having the
                      most substantial impact, such as defective pricing or other irregularities in
                      pricing and formation of contracts, product substitution, false claims, labor
                      mischarging, and accounting fraud. The task force's priority efforts
                      include: identification and prosecution of procurement fraud cases
                      through coordination with U.S. Attorneys' Offices and OIGs, better
                      coordination between agency auditors and investigators to ensure that
                      indicators of fraud are promptly reported to criminal investigators,
                      improved identification and resolution of investigative and coordination
                      issues, and specialized training for OIG agents and auditors on the
                      development and prosecution of procurement fraud cases. The IG also
                      chairs the Information Sharing and Legislation Committees for the NPFTF.
                      The mission of the Information Sharing Committee is to improve the
                      Federal Government's ability to detect, prevent, and prosecute
                      procurement fraud through improved collection, analysis, and sharing of
                      data. The mission of the Legislation Committee is to improve the Federal
                      Government's ability to detect, prevent, and prosecute procurement fraud
                      through legislative modifications and/or changes in policies and practices.

                    • The IG is a participating member on several committees of the President's
                      Council on Integrity and Efficiency (PCIE) and the Executive Council on
                      Integrity and Efficiency (ECIE). These include the Homeland Security
                      Roundtable, the Human Resources Committee, and the Investigations
                      Committee. The focus of the Homeland Security Roundtable was a
                      review of the Federal Government's response to Hurricanes Katrina and



                                                                April 1, 2007 - September 30, 2007 35
                               Governmentwide Policy Activities



                                         Rita. The mission of the Human Resources Committee is to provide
                                         educational opportunities for members of the PCIE and ECIE communities
                                         and to assist in ensuring the development of competent personnel. The
                                         purpose of the Investigations Committee is to advise the inspector general
                                         community on issues involving investigative functions, establish
                                         investigative guidelines, and promote best practices.

                                       • The Assistant Inspector General for Auditing co-chairs the IT Committee
                                         under the PCIE Federal Audit Executive Council. This Committee is
                                         responsible for leading discussion and reaching consensus among all of
                                         the OIGs regarding a myriad of IT issues, including proposed legislation
                                         and regulations, OMB questions and reporting requirements, and IT audit
                                         approaches and best practices. Further, audit representatives participate
                                         in this Committee to develop approaches and techniques for conducting
                                         IT security audits under the Federal Information Security Management
                                         Act. Additionally, audit representatives participate in the PCIE IT
                                         Roundtable, a group that facilitates effective IT audits, evaluations, and
                                         investigations by OIGs and provides an OIG perspective on
                                         governmentwide IT operations.

                                       • Our TeamMate Technical Support Group participates in the TeamMate
                                         Federal Users Group and the PriceWaterhouseCoopers TeamMate Users
                                         Group to discuss concerns and new challenges facing TeamMate users.
                                         TeamMate is an automated audit paperwork management system that
                                         strengthens the audit process and increases efficiency.

Legislation and                        During this reporting period, the OIG reviewed 236 legislative matters and
                                       12 proposed regulations.
Regulations




36 Semiannual Report to the Congress
Professional Assistance Services



   Government Auditing Standards prohibit Federal audit organizations from
   performing certain types of management consulting projects because they
   may impair the independence of the auditors when performing subsequent
   audit work in the same area. To maintain our independence when working
   closely with GSA management, we carefully assess our services to ensure
   compliance with the standards. As allowed under the standards, we
   participate in Agency improvement task forces, committees, and working
   groups in an observer or advisory capacity.

   Task Forces, Committees, and Working Groups. The OIG provides
   advice and counsel to GSA while monitoring ongoing Agency initiatives. Our
   representatives advise management at the earliest possible opportunity of
   potential problems, help ensure that appropriate management controls are
   provided when installing new or modifying existing Agency systems, and
   offer possible solutions when addressing complex financial and operational
   issues.

   Our direct participation with the Agency on task forces, committees, and
   working groups allows us to contribute our expertise and advice, while
   improving our own familiarity with the Agency’s rapidly changing systems.
   We nevertheless maintain our ability to independently audit and review
   programs. Our participation on task forces is typically as a nonvoting
   advisory member.

   Some areas in which we have been involved this period include:

   • Multiple Award Schedule Working Group. The Multiple Award
     Schedule (MAS) Working Group was established as a result of an OIG
     report released in August 2001 relating to MAS contracting pricing
     practices. The Working Group is primarily comprised of members of the
     Federal Acquisition Service (FAS) and the OIG, with representation also
     from the Office of the Chief Acquisition Officer. The Working Group has
     served as an effective institutionalized communications channel for both
     broad policy issues and discrete issues having to do with particular
     contracts or reviews.

     The Working Group has had several areas of focus, including preaward
     contract reviews and MAS negotiations issues. The Working Group has
     developed guidance to MAS contracting officers (COs) regarding the
     performance and use of preaward MAS contract reviews. Further, the
     Working Group has reinvigorated the process by which FAS and the OIG
     collaboratively select and commence preaward reviews of vendors, and
     has built into this process specific mechanisms for COs to request
     reviews of particular vendors. The Working Group has focused on issuing
     guidance to COs regarding negotiation objectives and discrete negotiation
     issues for MAS contract awards. The Working Group also provided input
     to FAS in its efforts to upgrade or enhance pricing performance measures
     on MAS contracts.


                                             April 1, 2007 - September 30, 2007 37
                               Professional Assistance Services



                                       • GSA IT Governance Groups. Audit representatives participate as
                                         nonvoting members on three of GSA’s major IT governance teams and
                                         attend meetings. The Information Technology Architecture Planning
                                         Committee defines the standards for GSA’s information technology in
                                         support of business goals and at the direction of the Information
                                         Technology Council (ITC). The ITC is comprised of senior IT staff
                                         members from the Office of the Chief Information Officer and GSA
                                         services, staff offices, and regions to collaboratively explore and
                                         determine actions needed to ensure that IT decisions have a sound
                                         business and IT investment basis. Senior audit representatives also
                                         participate in meetings of the Business Systems Council, a senior
                                         management forum chaired by the Deputy Administrator. The Business
                                         Systems Council makes decisions regarding major IT investments in
                                         conjunction with GSA’s Performance Management process, the Human
                                         Capital Planning process, the IT Capital Planning and Investment process,
                                         and ongoing business process changes for the Agency.

                                       • Single Audit Act Activities. The Single Audit Act established uniform
                                         audit requirements for state and local governments receiving Federal
                                         awards. The non-Federal entities that receive Federal awards under
                                         more than one Federal program are required to undergo a single audit to
                                         prevent duplicate audits and inefficiencies. Each Federal agency monitors
                                         the non-Federal entity’s use of awards provided by the Agency, and
                                         assesses the quality of the audits conducted relative to its program. The
                                         OIG monitors these activities primarily as they relate to the personal
                                         property disposal program.




38 Semiannual Report to the Congress
               Statistical Summary of OIG Accomplishments



                             Audit Reports Issued
                             The OIG issued 64 audit reports during this reporting period. The 64 reports
                             contained financial recommendations totaling $647,962,590, including
                             $644,900,875 in recommendations that funds be put to better use and
                             $3,061,715 in questioned costs. Due to GSA’s mission of negotiating
                             contracts for governmentwide supplies and services, most of the savings
                             from recommendations that funds be put to better use would be applicable
                             to other Federal agencies.

                             Management Decisions on Audit Reports
                             Table 1 summarizes the status of the universe of audits requiring
                             management decisions during this period, as well as the status of those
                             audits as of September 30, 2007. There were no reports more than six
                             months old awaiting management decision as of September 30, 2007.
                             Table 1 does not include one report issued to another agency this period.
                             Table 1 also does not include four reports excluded from the management
                             decision process because they pertain to ongoing investigations.


                 Table 1. Management Decisions on OIG Audits


                                                                  Reports with        Total
                                                  No. of            Financial       Financial
                                                 Reports        Recommendations Recommendations

For which no management decision
had been made as of 4/1/07
  Less than six months old                         34                  24               $142,697,702
  Six or more months old                            2                   1                  1,193,793
Reports issued this period                         63                  35                647,962,590
TOTAL                                              99                  60               $791,854,085
For which a management decision
was made during the reporting period
  Issued prior periods                             36                  25               $143,891,495
  Issued current period                            29                  17                141,973,651
TOTAL                                              65                  42               $285,865,146
For which no management decision
had been made as of 9/30/07
  Less than six months old                         34                  18               $505,988,939
  Six or more months old                            0                   0                          0
TOTAL                                              34                  18               $505,988,939




                                                                       October 1, 2006 – March 31, 2007 39
                      Statistical Summary of OIG Accomplishments



                                       Management Decisions on Audit Reports with
                                       Financial Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                       recommendations by category (funds to be put to better use or questioned
                                       costs).




                   Table 2. Management Decisions on OIG Audits with
                   Recommendations that Funds be Put to Better Use

                                                                  No. of                       Financial
                                                                 Reports                   Recommendations

       For which no management decision had
       been made as of 4/1/07
         Less than six months old                                   22                      $141,899,876
         Six or more months old                                      1                         1,193,793
       Reports issued this period                                   29                       644,900,875
       TOTAL                                                        52                      $787,994,544

       For which a management decision was
       made during the reporting period
       TOTAL                                                        36                      $283,219,752

       For which no management decision had
       been made as of 9/30/07
         Less than six months old                                    16                     $504,774,792
         Six or more months old                                       0                                0
       TOTAL                                                         16                     $504,774,792




40 Semiannual Report to the Congress
          Statistical Summary of OIG Accomplishments




            Table 3. Management Decisions on OIG Audits
                       with Questioned Costs

                                        No. of              Questioned
                                       Reports                Costs

For which no management decision
had been made as of 4/1/07
  Less than six months old                 2               $ 797,826
  Six or more months old                   0                        0
Reports issued this period                 6                3,061,715
TOTAL                                      8               $3,859,541

For which a management decision
was made during the reporting period
TOTAL                                      6               $2,645,394

For which no management decision
had been made as of 9/30/07
  Less than six months old                 2               $1,214,147
  Six or more months old                   0                        0
TOTAL                                      2               $1,214,147




                                                 October 1, 2006 – March 31, 2007 41
                      Statistical Summary of OIG Accomplishments



                                       Investigative Workload
                                       The OIG opened 110 investigative cases and closed 84 cases during this
                                       period. In addition, the OIG received and evaluated 29 complaints and
                                       allegations from sources other than the Hotline that involved GSA
                                       employees and programs. Based upon our analyses of these complaints
                                       and allegations, OIG investigations were not warranted.

                                       Referrals
                                       The OIG makes criminal referrals to the Department of Justice or other
                                       authorities for prosecutive consideration and civil referrals to the Civil
                                       Division of the Department of Justice or U.S. Attorneys for litigative
                                       consideration. The OIG also makes administrative referrals to GSA officials
                                       on certain cases disclosing wrongdoing on the part of GSA employees,
                                       contractors, or private individuals doing business with the government.



                                Table 4. Summary of OIG Referrals

           Type of Referral                              Cases                               Subjects
           Criminal                                        41                                    95
           Civil                                            4                                     7
           Administrative                                  74                                   183
           TOTAL                                          119                                   285


                                       In addition, the OIG made 55 referrals to GSA officials for information
                                       purposes only.

                                       Actions on OIG Referrals
                                       Based on these and prior referrals, 32 cases (68 subjects) were accepted
                                       for criminal prosecution and 3 cases (7 subjects) were accepted for civil
                                       litigation. Criminal cases originating from OIG referrals resulted in
                                       72 indictments/informations and 72 successful prosecutions. OIG civil
                                       referrals resulted in 3 case settlements. Based on OIG administrative
                                       referrals, management debarred 39 contractors/individuals, suspended
                                       8 contractors/individuals, and took 12 personnel actions against employees.




42 Semiannual Report to the Congress
         Statistical Summary of OIG Accomplishments



                         Monetary Results
                         Table 5 presents the amounts of fines, penalties, settlements, judgments,
                         and restitutions payable to the U.S. Government as a result of criminal and
                         civil actions arising from OIG referrals.


                Table 5. Criminal and Civil Recoveries
                                               Criminal                      Civil

Fines and Penalties                        $    792,080                $        —

Settlements                                          —                   6,401,155

Restitutions                                   3,383,266                        —

TOTAL                                       $4,175,346                 $6,401,155


                         Table 6 presents the amount of administrative recoveries, cost avoidance,
                         and investigative savings as a result of investigative activities.


                        Table 6. Other Monetary Results

Administrative Recoveries                      $169,416

Investigative Savings                             9,920

TOTAL                                          $179,336




                                                                    October 1, 2006 – March 30, 2007 43
APPENDICES
                    Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision process,         GSA Fleet’s Loss Prevention Program
the GSA Office of the Chief Financial Officer, Office of    Period First Reported: October 1, 2006, to March 31, 2007
the Controller, is responsible for tracking the
implementation of audit recommendations after a             The review assessed whether loss prevention
management decision has been reached. That office           procedures were working effectively. The report
furnished the following status information.                 contained two recommendations; they have not been
                                                            implemented.
Thirteen audits highlighted in prior reports to the
Congress have not yet been fully implemented; all are       One recommendation involves GSA Fleet continuing to
being implemented in accordance with currently              develop      a    centrally    coordinated     loss
established milestones.                                     prevention program. It is scheduled to be completed
                                                            on January 15, 2008. The other recommendation
PBS’s Use of Occupancy Agreements                           involves strengthening procedures for assuring all
                                                            charges are subject to review. It is scheduled for
as a Billing Source                                         completion on December 15, 2007.
Period First Reported: October 1, 2006, to March 31, 2007
                                                            Hurricane Katrina
The focus of the review was to determine whether the        Period First Reported: October 1, 2006, to March 31, 2007
occupancy agreements billing process resulted in more
accurate, easier to understand customer bills. The          The review assessed GSA’s effectiveness in its
report contained two recommendations; they have not         response to Hurricane Katrina. The report contained
been implemented.                                           eight recommendations; three have been implemented.

One recommendation involves developing and                  The remaining recommendations involve establishing
implementing a methodology to provide customers with        guidance and procedures related to emergency
additional information. The other recommendation            contracting, instituting nationwide emergency
involves working with regional management to ensure         contracting training, ensuring proper supervision and
that customer questions are resolved in a timely            oversight of contracting personnel supporting FEMA,
manner. They are scheduled for completion on                ensuring regional management program practices are
November 15, 2007.                                          consistent, and examining current billing methodology
                                                            to ensure costs incurred by GSA to support the Federal
Operational Savings at the Western                          Emergency Management Agency (FEMA) can be
                                                            identified and billed to FEMA. They are scheduled for
Distribution Center                                         completion between December 15, 2007, and March
Period First Reported: October 1, 2006, to March 31, 2007   15, 2008.
The review examined a study to ascertain if the costs       GSA’s Telework Program
and savings identified in a FSS study were valid and        Period First Reported: October 1, 2006, to March 31, 2007
whether the study’s savings should be used as a basis
for similar modernizations. The report contained three      The review examined GSA’s Telework Program. The
recommendations; one has been implemented.                  report contained four recommendations; they have not
                                                            been implemented.
One recommendation involves addressing increasing
labor costs relative to declining sales at the Western      The recommendations involve creating a telework
Distribution Center. The other recommendation               program that is consistently administered throughout
involves continuing efforts to reduce transportation        the organization, developing a tracking system to
costs at the Sharpe Depot. They are scheduled for           identify employees participating in the program,
completion on December 15, 2007.                            reviewing and updating current telework guidance and


                                                                                 April 1, 2007 – September 30, 2007 47
                    Appendix I–Significant Audits from Prior Reports




update as necessary, and ensuring that associates are         applying a risk-based approach to identify tenants
receiving correct locality pay. The recommendations           whose activities pose a greater risk to the environment
are scheduled for completion between November 15,             and execute a written agreement with them. They are
2007, and October 15, 2008.                                   scheduled for completion on December 15, 2007.

GSA’s Electronic Contract Proposal                            Federal Procurement Data
and Modification System                                       System–Next Generation
Period First Reported: October 1, 2006, to March 31, 2007     Period First Reported: October 1, 2005, to March 31, 2006

The review’s objective was to determine whether               The review disclosed that certain contract and system
eOffer/eMod are realizing expected benefits and user          requirements had not been addressed and
requirements for the system. The report contained             discrepancies existed in some elements in the system.
four recommendations; two have not been implement-            The report contained three recommendations; two
ed.                                                           have been implemented.

One recommendation involves analyzing usage rates             The remaining recommendation, which requires
and developing strategies to address the causes of low        resolving all data element discrepancies and data
usage. The other recommendation involves develop-             migration issues, is scheduled for completion on
ing or updating the FSS-19 business case. They are            March 15, 2008.
scheduled for completion on November 15, 2007.
                                                              GSA Advantage!
Overtime Management                                           Period First Reported: April 1, 2005, to September 30, 2005
Period First Reported: April 1, 2006, to September 30, 2006
                                                              The review centered on specific shortfalls with GSA
The review focused on the management control                  Advantage’s management funding and planning
environment for building operations that frequently           process. The report contained four recommendations;
incur overtime costs. The report contained three              three have been implemented.
recommendations; two have been implemented.
                                                              The remaining recommendation involves establishing a
The remaining recommendation involves redesigning             management structure with adequate authority and
GSA Form 544 as a standard mandatory electronic               responsibility. It is scheduled for completion on
version with e-signature capabilities. It is scheduled for    June 15, 2008.
completion on November 15, 2008.
                                                              Comprehensive Human Resources
PBS Environment Management                                    Integrated System
Program                                                       Period First Reported: April 1, 2005, to September 30, 2005
Period First Reported: October 1, 2005, to March 31, 2006
                                                              The review of the Comprehensive Human Resources
The review found that the scope of the Environment            Integrated System identified user reluctance to use the
Management Program needs to be expanded, and the              system and the availability of duplicative system
database needs several application controls. The              functionality provided by other GSA systems. The
report contained ten recommendations; eight have              report contained three recommendations; two have
been implemented.                                             been implemented.

One remaining recommendation involves ensuring that           The remaining recommendation involves conducting
PBS management supervises the environmental                   a post-implementation review. It is scheduled for
liability report. The other recommendation involves           completion on November 15, 2007.


48 Semiannual Report to the Congress
                    Appendix I–Significant Audits from Prior Reports




Review of FedBizOpps                                          users. The recommendations are scheduled for
Period First Reported: April 1, 2004, to September 30, 2004   completion between November 15, 2007, and
                                                              March 15, 2008.
The review involved an online survey of FedBizOpps
users to gather information on user satisfaction to           Consolidation of Distribution Centers
                                                              Period First Reported: October 1, 2002, to March 31, 2003
assess the effectiveness of FedBizOpps. The report
contained four recommendations; one has been
                                                              The review examined the operations of the FSS Stock
implemented.                                                  Program. The report contained two recommendations;
                                                              one has been implemented.
The remaining recommendations involve developing a
process to solicit input from vendors on system               The remaining recommendation, which requires
enhancements,     evaluating   enhancements      to           developing access to reliable data for all delivery
FedBizOpps based on vendor input, and ensuring that           methods, is scheduled for completion on January 15,
memoranda of agreement are in place for FedBizOpps            2008.




                                                                                   April 1, 2007 – September 30, 2007 49
                               Appendix II–Audit Report Register
                                                                                       Financial
                                                                                   Recommendations
                                                                               Funds to        Questioned
Date of        Audit                                                          Be Put to      (Unsupported)
Report         Number                    Title                                Better Use         Costs



(Note: Because some audits pertain to contract award or actions that have
not yet been completed, the financial recommendations related to these
reports are not listed in this Appendix.)

PBS Internal Audits
06/11/07        A060232         Review of the Pacific Rim Region, Public
                                Buildings Service, Golden Gate Office

08/24/07        A060082         Review of Public Buildings Service's
                                Delegations of Authority to Lease Space

09/13/07        A060170         Review of the Heating Operation and
                                Transmission District's Operations and
                                Finances

09/17/07        A060101         Alert Report on Procurement Irregularities
                                Associated with the Hiring of Support Staff
                                for the US Marshals Service

PBS Contract Audits
04/20/07        A070107         Review    of    a    Claim:    Linear
                                Electric Company, Subcontractor to
                                Williams Construction Services, Inc.,
                                Lease Number GS-02B-23182

04/20/07        A070117         Preaward Review of Supplemental
                                Architect and Engineering Services
                                Contract: Gruzen Samton Architects, LLP,
                                Solicitation Number GS-02P-06-DTC-
                                0024(N)

05/02/07        A070126         Preaward Review of Supplemental
                                Architect and Engineering Services
                                Contract: Wank Adams Slavin
                                Associates, LLP, Solicitation
                                Number GS-02P-06-DTC-0024(N)

07/31/07        A070193         Preaward       Review       of   Architect
                                and Engineering Services Contract: URS
                                Group, Inc., Solicitation Number GS-05P-
                                04-GBC-0020




50 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                               Financial
                                                                           Recommendations
                                                                       Funds to        Questioned
Date of    Audit                                                      Be Put to      (Unsupported)
Report     Number               Title                                 Better Use         Costs



08/22/07   A070192    Preaward Review of Architect &
                      Engineering Services Contract: Cannon
                      Design, Subcontractor to URS Group, Inc.,
                      Solicitation Number GS-05P-04-GBC-0020

08/23/07   A070183    Preaward Review of Architect Engineer
                      Proposal: Perkins + Will, Solicitation
                      Number GS-09P-06-KTC-3043

08/23/07   A070190    Review of Cost or Pricing Data: Mascaro
                      Construction Company, L.P., Contract
                      Number GS-02P-03-DTC-0010

08/27/07   A070141    Review of Claim for Increased Costs:
                      Logic Vision, Inc., Contract Number
                      GS-06P-04-GYC-0005

08/28/07   A060196    Preaward Review of Request for
                      Equitable Adjustment: Tigard Electric, Inc.,
                      Subcontractor to J.E. Dunn Northwest,
                      Inc., Contract Number GS-10P-02-LTC-
                      0025

FSS Internal Audits
05/17/07   A070067    Review of the Administration of Unused                              $1,516,239
                      Airline Tickets, Federal Acquisition Service

05/21/07   A060153    Review     of     Federal  Supply
                      Service Travel and Transportation
                      Management      Division's Freight
                      Management Program

FSS Contract Audits
04/09/07   A040240    Limited Postaward Review of Multiple                                  $534,922
                      Award Schedule Contract: McNeely Pigott
                      and Fox, Contract Number GS-23F-0072K;
                      January 4, 2000 - December 31, 2004

04/17/07   A060198    Preaward Review of Multiple Award
                      Schedule Contract Extension: United
                      Parcel Service, Inc., Contract Number GS-
                      23F-0282L




                                                                     April 1, 2007 – September 30, 2007 51
                               Appendix II–Audit Report Register
                                                                                    Financial
                                                                                Recommendations
                                                                            Funds to        Questioned
Date of        Audit                                                       Be Put to      (Unsupported)
Report         Number                    Title                             Better Use         Costs



04/17/07        A060242         Preaward Review of Multiple Award
                                Schedule Contract Extension: Gateway
                                Companies, Inc., Contract Number GS-
                                35F-4565G

04/19/07        A070098         Preaward Review of Multiple Award
                                Schedule Contract Extension: Silicon
                                Graphics,   Incorporated,   Contract
                                Number GS-35F-0325M

04/20/07        A070068         Preaward Review of Multiple Award
                                Schedule Contract Extension:    SRA
                                International, Inc., Contract Number
                                GS-35F-4594G

04/26/07        A070114         Preaward Review of Multiple Award
                                Schedule Contract Extension:  Scott
                                Technologies, Incorporated, Contract
                                Number GS-07F-9563G

04/30/07        A060245         Preaward Review of Multiple Award
                                Schedule Contract Extension: Comstor,
                                Division of Westcon Group North America,
                                Inc., Contract Number GS-35F-4389G

05/03/07        A070036         Preaward Review of Multiple Award
                                Schedule Contract Extension:   ASAP
                                Software  Express,   Inc.,   Contract
                                Number GS-35F-4027D

05/03/07        A060097         Preaward Review of Multiple Award
                                Schedule Contract Extension: Accenture
                                LLP, Contract Number GS-10F-0246L

05/03/07        A060177         Preaward Review of Multiple Award
                                Schedule Contract Extension: Logistics
                                Management Institute, Contract Number
                                GS-00F-0026M

05/14/07        A070047         Limited Scope Review of Multiple Award                        $60,590
                                Schedule Contract: Draegar Safety, Inc.,
                                Contract Number GS-07F-9510G

05/21/07        A070051         Preaward Review of Multiple Award
                                Schedule Contract Extension: BUCON,
                                Inc., Contract Number GS-07F-9665G
52 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                           Financial
                                                                       Recommendations
                                                                   Funds to        Questioned
Date of    Audit                                                  Be Put to      (Unsupported)
Report     Number              Title                              Better Use         Costs




07/09/07   A060210    Preaward Review of Multiple Award
                      Schedule Contract Extension: Softchoice
                      Corporation, Contract Number GS-35F-
                      0196M

07/24/07   A060161    Preaward Review of Multiple Award
                      Schedule Contract Extension: Canon
                      U.S.A., Inc., Contract Number GS-25F-
                      0023M

09/27/07   A060239    Preaward Review of Multiple Award
                      Schedule Contract Extension: Emtec
                      Federal, Inc., Contract Number GS-35F-
                      4564G

FTS Contract Audits
04/30/07   A070110    Preaward    Review   of   a    Claim:
                      MCS      of   Tampa,    Incorporated,
                      Contract    Number    GS-06F-0089Z,
                      Task Order Number TSX00050003

04/30/07   A050256    Preaward       Review     of a   Claim:
                      Computer        Intelligence   Squared,
                      Inc., Contract Number GS-00K-97-AFA-
                      0001

FAS Internal Audits
07/31/07   A060190    Review of Multiple Award Schedule
                      Program Contract Workload Management

09/12/07   A070108    FY 2007 Office of Inspector General
                      Information Technology Security Audit of
                      the Fleet Management System

FAS Contract Audits
05/31/07   A070044    Report on the Audit of Termination
                      for    Convenience:     IBM      Global                              $6,447
                      Business Services - Public Sector/
                      Federal, Subcontract Number ITS/EPA-
                      IBM-02-0001




                                                                 April 1, 2007 – September 30, 2007 53
                               Appendix II–Audit Report Register
                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to      (Unsupported)
Report         Number                    Title                               Better Use         Costs



06/01/07        A070012         Preaward Review of Multiple Award
                                Schedule Contract Extension: Eaton
                                Electrical, Inc., Contract Number GS-07F-
                                9460G

06/06/07        A070072         Preaward Review of Multiple Award
                                Schedule Contract Extension: Megabyte
                                International  Corporation,   Contract
                                Number GS-35F-0655M

07/05/07        A070088         Preaward Review of Multiple Award
                                Schedule Contract Extension: Big Top
                                Manufacturing; Contract Number GS-07F-
                                9604G

07/25/07        A070148         Preaward Review of Multiple Award
                                Schedule Contract Extension: Sumaria
                                Systems, Inc., Contract Number GS-35F-
                                4818G

07/26/07        A070143         Preaward Review of Multiple Award
                                Schedule Contract Extension: Council for
                                Logistics Research, Incorporated, Contract
                                Number GS-00F-0001P

07/31/07        A060247         Preaward Review of Multiple Award
                                Schedule Contract Extension:  AT&T
                                Government Solutions, Inc., Contract
                                Number GS-35F-4507G

07/31/07        A070160         Preaward Review of Multiple Award
                                Schedule Contract Extension: Complete
                                Packaging and Shipping Supplies, Inc.,
                                Contract Number GS-14F-0039M

08/16/07        A070092         Preaward Review of Multiple Award
                                Schedule        Contract       Extension:
                                Simplex Grinnell LP, Contract Number GS-
                                07F-0396M

08/20/07        A070077         Preaward Review of Multiple Award
                                Schedule        Contract       Extension:
                                Reed Elsevier, Inc., Contract Number GS-
                                02F-0048M



54 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                           Financial
                                                                       Recommendations
                                                                   Funds to        Questioned
Date of    Audit                                                  Be Put to      (Unsupported)
Report     Number             Title                               Better Use         Costs




08/28/07   A070169   Preaward Review of Multiple Award
                     Schedule Contract Extension: Remotec,
                     Inc.;  Contract     Number     GS-07F-
                     0538M

08/30/07   A060182   Review       of      Multiple   Award                              $679,225
                     Schedule Contract Number GS-35F-0559J
                     for the Period June 29, 1999
                     to January 28, 2005: Overwatch Textron
                     Systems, Tactical Operations

09/11/07   A070097   Preaward Review of Multiple Award
                     Schedule        Contract      Extension:
                     EMC Corporation-EMC2
                     MicrosoftPractice,   Contract   Number
                     GS-35F-0283M

09/12/07   A070125   Preaward Review of Multiple Award
                     ScheduleContract Extension: Cartus
                     Corporation, Contract Number GS-23F-
                     9762H

09/12/07   A070142   Preaward Review of Multiple Award
                     Schedule Contract Extension: Dynamics
                     Research Corporation, Contract Number
                     GS-35F-4775G

09/13/07   A070159   Preaward Review of Multiple Award
                     Schedule Contract Extension:     DHS
                     Systems, LLC, Contract Number GS-07F-
                     8645C

09/18/07   A060160   Limited Scope Review of Multiple Award                               $87,807
                     Schedule Contract Number GS-25F-0062L
                     for the Period April 1, 2004 to September
                     30, 2006: Xerox Corporation

09/18/07   A070152   Preaward Review of Multiple Award
                     Schedule Contract Extension: MPRI, Inc.,
                     Contract Number GS-10F-0256M

09/21/07   A060247   Limited Scope Review of Multiple Award                             $182,932
                     Schedule Contract Number GS-35F-
                     4507G for the Period January 1, 2003
                     Through     December      31,    2006:
                     AT&T Government Solutions, Inc.

                                                                 April 1, 2007 – September 30, 2007 55
                               Appendix II–Audit Report Register
                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to      (Unsupported)
Report         Number                    Title                               Better Use         Costs



09/25/07        A070024         Preaward Review of Multiple Award
                                Schedule Contract Extension: Dell
                                Marketing L.P., Contract Number GS-35F-
                                4076D

Other Internal Audits
06/05/07        A060152         Controls over FECA Compensation and
                                Medical Benefits Expense

07/12/07        A070082         Review of GSA's Implementation of OMB
                                Circular A-123, Appendix A

07/31/07        A070108         FY     2007     Office    of  Inspector
                                General Information Technology Security
                                Audit of the Region 8 FTS LAN

08/01/07        A070108         FY     2007     Office    of  Inspector
                                General Information Technology Security
                                Audit of the Region 8 PBS LAN

08/13/07        A060195         Review of        the Implementation of
                                Homeland          Security  Presidential
                                Directive 12

08/28/07        A070108         FY     2007    Office   of    Inspector
                                General Information Technology Security
                                Audit of GSAjobs

09/12/07        A070180         Alert Report on Security of GSA's
                                Electronic     Messaging          Services
                                and National Notes Infrastructure

09/17/07        A070108         FY     2007     Office   of     Inspector
                                General FISMA Review of GSA's
                                Information Technology Security Program




56 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                          Financial
                                                                      Recommendations
                                                                  Funds to        Questioned
Date of    Audit                                                 Be Put to      (Unsupported)
Report     Number             Title                              Better Use         Costs



09/27/07   A070136   Internal Controls Over Payroll - FY 2007

Non-GSA Audits
07/03/07   A060243   Review of Del Amo Reimbursement
                     Request: Shell Oil Company




                                                                April 1, 2007 – September 30, 2007 57
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending

Public Law 104-106 requires the head of a Federal             In GSA, the Office of the Chief Financial Officer (OCFO)
agency to complete final action on each management            is responsible for monitoring and tracking open
decision required with regard to a recommendation in          recommendations. While we continue to assist the
an Inspector General's report within 12 months after the      Agency in resolving these open items, various litigative
date of the report. If the head of the Agency fails to        proceedings, continuing negotiations of contract
complete final action within the 12-month period, the         proposals, and corrective actions needed to undertake
Inspector General shall identify the matter in the            complex and often phased-in implementing actions
semiannual report until final action is complete.             often delay timely completion of the final action.

The OCFO provided the following list of reports with action items open beyond 12 months:


Date of         Audit
Report          Number                                            Title


Contract Audits
08/05/97        A73617           Refund From The Committee For Purchase From People Who Are Blind
                                 Or Severely Disabled, Agreement Number GS-02F-61511

05/27/98        A42146           Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                                 Contract Number GS-00F-07010

06/17/98        A82441           Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                                 Contract Number GS-09P-95-KTC-0010

03/24/99        A995128          Preaward Audit of Cost or Pricing Data: Sachs Electric Company, Subcontractor to
                                 Morse Diesel International, Inc., Contract Number GS-06P-95-GZC-0501

06/24/99        A995231          Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                                 GS-02P-95-DTC-0041(N)

06/01/00        A000971          Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal
                                 Triangle Project

04/30/01        A010127          Audit of Billings under Contract Number GS-06P-99-GZC-0315: DKW
                                 Construction, Inc.

10/18/01        A63630           Postaward Audit of Multiple Award Schedule Contract: The Presidio Corporation,
                                 Contract Number GS00K-95-AGS-6170, Contract Period April 1, 1995 through
                                 March 31, 1996

10/31/01        A010265          Preaward Audit of Architect and Engineering Services Contract: HNTB District of
                                 Columbia Architecture, P.C., Solicitation Number GS-11P-00-MQC-0041

01/11/02        A010281          Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                                 Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                 Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/16/02        A020115          Limited Scope Audit of a Termination Claim: Patriot Group Contractors, Inc.,
                                 Contract Number GS-11P-99-MAC-0006



58 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                  Title


05/29/02   A020124   Preaward Audit of a Claim for Increased Costs: Res-Com Insulation, Inc.,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/12/02   A020097   Preaward Audit of a Claim for Increased Costs: Artisans G & H Fixtures, Inc.,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

07/16/02   A020191   Preaward Audit of Supplemental Architect and Engineering Contract: McMullan &
                     Associates, Inc., Solicitation Number GS-11P-01-YTD-0319

07/30/02   A020086   Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems North,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

09/04/02   A020180   Preaward Audit of Architect and Engineering Services Contract: Adtek Engineering,
                     Inc., Solicitation Number GS-11P-01-YTD-0319

09/24/02   A020196   Preaward Audit of Architect and Engineering Services Contract: BEI Structural
                     Engineers, Inc., Solicitation Number GS-11P-01-YTD-0319

10/02/02   A020178   Preaward Audit of Multiple Award Schedule Contract Modification: Motorola, Inc.,
                     GSA Contract Number GS-35F-0004L

11/20/02   A010279   Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                     New U.S. Courthouse & Federal Building, Sacramento, California, Contract
                     Number GS-09P-95-KTC-0032

01/30/03   A020248   Audit of Claim for Increased Costs: Doan/Lake Erie LLC, Contract Number GS-
                     05P-99-GBC-0012

03/21/03   A020133   Preaward Audit of a Claim for Increased Costs: Cosco Fire Protection, Inc.,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

03/25/03   A030140   Limited Scope Review of Termination Claim: Science Applications International
                     Corporation, Contract Number GS-35F-4461G, Task Order Number T0002SJ0159

05/02/03   A030106   Preaward Audit of a Claim for Increased Costs: George Foss Company,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/29/03   A020230   Preaward Audit of a Claim for Increased Costs: C. E. Toland & Son, Subcontractor
                     to Morse Diesel International, Inc., New U.S. Courthouse & Federal Building,
                     Sacramento, California, Contract Number GS-09P-95-KTC-0032




                                                                   April 1, 2007 – September 30, 2007 59
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                         Title


06/02/03        A030138         Audit of Claim for Increased Costs: Hunt Construction Group, Inc., Contract
                                Number GS-05P-96-GBC-0015

07/02/03        A030163         Preaward Audit of Multiple Award Schedule Contract Extension:        Information
                                Network Systems, Inc., Contract Number GS-35F-5002H

08/08/03        A030177         Review of Incurred Costs: Jacobs Facilities, Inc., Contract Number GS-11P-98-
                                MYD-0015

12/17/03        A030168         Preaward Audit of Multiple Award Schedule Contract: Dynamic Systems, Inc.,
                                Solicitation Number FCIS-JB-980001B

12/17/03        A040001         Preaward Audit of Multiple Award Schedule Contract: Concord Communications,
                                Incorporated, Solicitation Number FCIS-JB-980001B

01/12/04        A040098         Preaward Audit of Supplemental Architect and Engineering Services Contract:
                                Gonzalez Hasbrouck, Inc., Solicitation Number GS-05P-03-GBD-0072

02/03/04        A040119         Attestation Review of Supplemental Architect and Engineering Services Contract:
                                Julie Snow Architects, Inc., Solicitation Number GS-05P-03-GBD-0072

03/09/04        A040162         Price Adjustments on Multiple Award Schedule Contract: Nova Solutions, Inc.,
                                Contract Number GS-29F-0173G, for the Interim Period April 1, 2004 Through
                                September 30, 2006

03/09/04        A030186         Postaward Audit of Multiple Award Schedule Contract: Nova Solutions, Inc.,
                                Contract Number GS-29F-0173G, for the Contract Period December 12, 1996
                                Through October 31, 2003

06/09/04        A040095         Preaward Audit of a Termination Settlement Proposal: M.L. Benjamin Enterprises,
                                Inc., Contract Number GS-02P-00P-VC-0024

06/15/04        A040095         Audit of Final Contract Payment: M.L. Benjamin Enterprises, Inc., Contract Number
                                GS-02P-00P-VC-0024

06/28/04        A040085         Limited Scope Postaward Audit of Multiple Award Schedule Contract: Onboard
                                Software, Inc., Contract Number GS-35F-0117J

10/29/04        A040211         Preaward Review of Multiple Award Schedule Contract Extension: Allsteel Inc.,
                                Contract Number GS-28F-0010J

05/10/05        A050112         Preaward Review of Multiple Award Schedule Contract Extension: Entrust, Inc.,
                                Contract Number GS-35F-0332K

06/17/05        A050100         Preaward Review of Multiple Award Schedule Contract Extension: Technical and
                                Management Services Corporation, Contract Number GS-00F-0020L



60 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                Title


07/08/05   A050007   Preaward Review of Multiple Award Schedule Contract Extension: Network
                     Equipment Technologies Federal, Inc., Contract Number GS-35F-0205K

07/08/05   A050138   Review of Claim: Nason and Cullen, Inc., Contract Number GS-03B-02301

08/15/05   A050157   Review of Termination Settlement Proposal: CompuCom Federal Systems, Inc.,
                     Contract Number GS-00K-97-AFD-2226

09/07/05   A050125   Preaward Review of Multiple Award Schedule Contract Extension:      Steelcase,
                     Incorporated, Contract Number GS-28F-8021H

09/12/05   A050151   Preaward Review of Multiple Award Schedule Contract Extension:           Global
                     Computer Enterprises, Inc., Contract Number GS-35F-0426K

10/27/05   A050089   Limited Scope Review of Multiple Award Schedule Contract: Hill-Rom Company,
                     Inc., Contract Number GS-27F-3002D

10/12/05   A050105   Preaward Review of Multiple Award Schedule Contract Extension: BCOP Federal,
                     Contract Number GS-14F-0035K

11/30/05   A050147   Limited Scope Review of Task Order F11623-02-F-A425 Multiple Award Schedule
                     Contract: Herman Miller, Inc., Contract GS-28F-8049H

12/30/05   A050176   Preaward Review of Multiple Award Schedule Contract Extension: E.F. Johnson
                     Company, Contract Number GS-35F-0675K

01/05/06   A050247   Preaward Review of Price Adjustment Claim: Lockheed Martin Information
                     Technology, Task Order Number 103BK0034, Contract Number GS-35F-4039G

01/26/06   A050122   Preaward Review of Multiple Award Schedule Contract Extension:        Fastenal
                     Company, Contract Number GS-06F-0039K

03/16/06   A050233   Preaward Review of Multiple Award Schedule Contract Extension:           Nortel
                     Networks, Inc., Contract Number GS-35F-0140L

03/30/06   A050248   Postaward Review of Lease Costs and Pricing Data: Information Systems
                     Support, Incorporated, Contract Number GS-09K-BHD-0006

04/18/06   A050122   Review of Industrial Funding Fee Remittances:   Fastenal Company, Contract
                     Number GS-06F-0039K

04/25/06   A050265   Preaward Review of Multiple Award Schedule Contract Extension:         Lawson
                     Products, Inc., Contract Number GS-06F-0027L

05/09/06   A050180   Preaward Review of Multiple Award Schedule Contract Extension: Office Depot,
                     Incorporated, Contract Number GS-14F-0040K



                                                                April 1, 2007 – September 30, 2007 61
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                        Title


05/19/06        A060083         Preaward Review of Multiple Award Schedule Contract Extension: Information
                                Manufacturing Corporation, Contract Number GS-25F-0032L

06/08/06        A050251         Preaward Review of Multiple Award Schedule Contract Extension:          ARES
                                Corporation, Contract Number GS-23F-0113L

06/12/06        A060099         Preaward Review of Multiple Award Schedule Contract Extension: Criticom, Inc.,
                                Contract Number GS-35F-0272L

06/22/06        A060154         Preaward Review of Multiple Award Schedule Contract Extension:         Pierce
                                Manufacturing Inc., Contract Number GS-30F-1045D

07/19/06        A060100         Preaward Review of Multiple Award Schedule Contract Extension: The Gallup
                                Organization, Contract Number GS-00F-0078M

07/20/06        A060062         Preaward Review of Multiple Award Schedule Contract Extension:         Agilent
                                Technologies, Inc., Contract Number GS-26F-5944A

07/25/06        A060146         Preaward Review of Multiple Award Schedule Contract Extension:        Xiotech
                                Corporation, Contract Number GS-35F-0244L

07/27/06        A060063         Preaward Review of Multiple Award Schedule Contract Extension:           EMC
                                Corporation, Contract Number GS-35F-0088K

08/09/06        A050204         Preaward Review of Multiple Award Schedule Contract Extension: Plantronics,
                                Incorporated, Contract Number GS-35F-0167L

08/14/06        A060093         Preaward Review of Multiple Award Schedule Contract Extension:           WFI
                                Government Services, Inc., Contract Number GS-23F-0215L

08/15/06        A060127         Preaward Review of Multiple Award Schedule Contract Extension May 7, 2006
                                Through May 6, 2011: W.B. Brawley Company, Contract Number GS-27F-0018L

09/07/06        A060181         Preaward Review of Multiple Award Schedule Contract Extension: Haverstick
                                Government Solutions, Inc., Contract Number GS-35F-0496L

09/13/06        A060231         Preaward Review of Architect and Engineering Services Contract:       Teng &
                                Associates, Inc., Contract Number GS-01P-06-BZC-0004

09/25/06        A060215         Preaward Review of Multiple Award Schedule Contract Modification: SAP Public
                                Services, Inc., Contract Number GS-35F-5891H




62 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit                                                                        Projected Final
Report     Number                                   Title                                Action Date


Internal Audits
03/18/03   A020161   Audit of the Consolidation of Distribution Center Operations:        01/15/2008
                     Impact on Shipment Costs & Delivery Times

08/05/04   A020245   Review of FedBizOpps                                                 03/15/2008
05/03/05   A040109   Audit of the General Services Administration's Fiscal Years 2004           Open
                     and 2003 Financial Statements

09/29/05   A040246   Review of the GSA Advantage! System                                  06/15/2008

09/30/05   A040142   Strategic Challenges for GSA's Comprehensive Human                   11/15/2007
                     Resources Integrated System (CHRIS)

03/28/06   A050040   Review of the PBS Environment Program Management                     12/15/2007

03/30/06   A040127   Review of the Federal Procurement Data System - Next                 03/15/2008
                     Generation (FPDS-NG)

04/19/06   A050130   Review of Overtime Management Controls in GSA Public                 11/15/2008
                     Buildings Service, National Capital Region




                                                                    April 1, 2007 – September 30, 2007 63
                                  Appendix IV–Delinquent Debts




The GSA Office of the Chief Financial Officer provided the following information.
During the period April 1, 2007 through September 30,          efforts.     These efforts included regular
2007, the following activities were undertaken by GSA          teleconferences on delinquent receivables in order
in an effort to improve debt collection and reduce the         to exchange necessary information to further the
amount of debt written off as uncollectible.                   collection process.      Receivables and claims
                                                               continue to be reduced by prompt monthly follow-up
• From April 1, 2007 to September 30, 2007, the                on delinquencies. In addition, delinquent debts and
  GSA         Finance         Centers          referred        aged receivable reports are sent to field office
  $642,519 delinquent non-Federal claims to the U.S.           personnel and regional management on a monthly
  Department of the Treasury (Treasury) for                    basis. Aged receivable reports over 120 days are
  cross-servicing collection activities. Collections on        elevated to regional financial officers, regional
  non-Federal claims exceeded $9.4 million.                    business managers and the Assistant Regional
  Administrative offsets have resulted in additional           Administrators for further action.
  collections of $4.5 million. GSA also collects
  non-Federal claims using Pre-Authorized Debits           • The Profit Recovery Group, through a contract
  (PAD). From April 1, 2007 to September 30, 2007,           arrangement with GSA, continues to actively review
  PADs totaling $39,073 were processed.                      and pursue overpayments with our Accounts
                                                             Payable Division. Delinquent receivables for the
• To comply with the Debt Collection Improvement Act         non-governmental entities are forwarded to
  of 1996 (DCIA), the General Services Administration        Treasury for offset/collection. This action has
  (GSA) transmits delinquent accounts receivable and         improved GSA's collections from the District of
  claims over 180 days old monthly to the Department         Columbia (DC) government and the tribal
  of the Treasury, Debt Management Service (DMS)             organization.
  for collection. GSA has continued to implement and
  initiate actions to improve debt collection efforts to   • GSA performance measurement goal is to reduce
  reduce the amount of debts written-off as                  delinquent accounts receivables over one year old.
  uncollectible.                                             Action plans to reach this goal have been
                                                             developed, and progress is being monitored on a
• Coordination between Treasury Cross-Servicing              monthly, quarterly, and yearly basis. This goal and
  personnel, regional contracting officers, realty           the development of related plans have had a
  specialists and GSA associates continues to                positive impact on GSA's efforts to improve our debt
  strengthen our receivable and claim collection             collection practices.
Non-Federal Accounts Receivable

                                                    As of                  As of
                                                 April 1, 2007       September 30, 2007         Difference

  Total Amounts Due GSA                         $142,226,646           $145,177,906             $2,951,260

  Amounts Delinquent                             $11,400,858            $11,089,689              ($311,169)

  Total Amount Written
  Off as Uncollectible
  Between 4/1/07 and
  9/30/07                                           $815,033


64 Semiannual Report to the Congress
                                     Appendix V–Reporting Requirements




The table below cross-references the reporting require-                           Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                            1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                                  and the National Defense Authorization Act is also
addressed.     The information requested by the                                   cross-referenced to the appropriate page of the report.




  Requirement                                                                                                                                    Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .36

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . .2, 23

     Section 5(a)(2) – Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 23

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . .47

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .42

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) – List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .50

     Section 5(a)(7) – Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . . .2, 23

     Section 5(a)(8) – Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .41
     Section 5(a)(9) – Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .40

     Section 5(a)(11) – Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) – Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .39

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .64

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .58




                                                                                                               April 1, 2007 – September 30, 2007 65
                             Appendix VI–OIG Offices and Key Officials



  Office of the Inspector General
  Inspector General, Brian D. Miller (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450

  Deputy Inspector General, Robert M. Samuels (Acting) (JD) . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450

  Advisor, Robert M. Samuels (JX) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450


  Office of Counsel to the Inspector General
  Counsel to the IG, Kevin A. Buford (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932

  Deputy Counsel to the IG, Virginia S. Grebasch (JCD) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932


  Office of Internal Evaluation and Analysis
  Director, Peter J. Coniglio (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2460


  Office of Audits
  Assistant IG for Auditing, Andrew Patchan, Jr. (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374

  Principal Deputy Assistant IG for Auditing, Vacant (JAD) . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374


  Deputy Assistant Inspectors General for Auditing
  Information Technology Audit Office, Gwendolyn A. McGowan (JA-T) . . . . . . . . . . . . . . . .(703) 308-1223

  Real Property Audit Office, Rolando N. Goco (JA-R) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 219-0088

  Finance & Administrative Audit Office, Jeffrey C. Womack (JA-F) . . . . . . . . . . . . . . . . . . .(202) 501-0006

  Acquisition Programs Audit Office, Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . . . . . . . .(703) 603-0189

  Contract Audit Office, James M. Corcoran (JA-C) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(617) 565-6795


  Regional Inspectors General for Auditing
  National Capital Region Field Office, Paul J. Malatino (JA-W) . . . . . . . . . . . . . . . . . . . . . .(202) 708-5340

  Northeast and Caribbean Field Office, Howard R. Schenker (Acting) (JA-2) . . . . . . . . . . .(212) 264-8620

  Mid-Atlantic Field Office, Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(215) 446-4840

  Southeast Sunbelt Field Office, James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . . . . . . .(404) 331-5125

  Great Lakes Field Office, David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7781


66 Semiannual Report to the Congress
                         Appendix VI–OIG Offices and Key Officials



Regional Inspectors General for Auditing (continued)
The Heartland Field Office, Arthur L. Elkin (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(816) 926-7052

Greater Southwest Field Office, Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . . . . . . .(817) 978-2572

Pacific Rim Field Office, James P. Hayes (JA-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2744


Office of Investigations
Assistant IG for Investigations, Charles J. Augone (JI) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1397

Deputy Assistant IG for Investigations, Gregory G. Rowe (JID) . . . . . . . . . . . . . . . . . . . . .(202) 501-1397



Special Agents in Charge (SAC)
Mid Atlantic Regional Office, SAC Randal A. Stewart (JI-W) . . . . . . . . . . . . . . . . . . . . . . .(202) 252-0008

  Philadelphia Resident Office, Assistant SAC James E. Adams (JI-3) . . . . . . . . . . . . . . .(215) 446-4830

Northeast and Caribbean Regional Office, SAC Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . .(212) 264-7300

  Boston Resident Office, Assistant SAC Luis A. Hernandez (JI-1) . . . . . . . . . . . . . . . . . .(617) 565-6820

Southeast Regional Office, SAC Lee P. Quintyne (JI-4) . . . . . . . . . . . . . . . . . . . . . . . . . . .(404) 331-5126

Central Regional Office, SAC Harvey G. Florian (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7779

Mid West Regional Office, SAC John F. Kolze (JI-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(816) 926-7214

Southwest Regional Office, SAC Paul W. Walton (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . . .(817) 978-2589

Western Regional Office, SAC Liza Ivins (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2755

Northwest Regional Office, SAC Terry J. Pfeifer (JI-10) . . . . . . . . . . . . . . . . . . . . . . . . . . .(253) 931-7654


Office of Administration
Assistant IG for Administration, Carolyn Presley-Doss (Acting) (JP) . . . . . . . . . . . . . . . . .(202) 501-4638

  Budget, Planning, and Financial Management Division, Director, Kristin Sneed (JPB) . .(202) 208-4198

  Facilities and Contracts Division, Director Marta M. Viera (JPFC) . . . . . . . . . . . . . . . . . .(202) 501-2887

  Human Resources Division, Director Joyce Folsom (Acting) (JPH) . . . . . . . . . . . . . . . .(202) 501-0360

  Information Technology Division, Director Margaret A. Hamilton (JPM) . . . . . . . . . . . . .(202) 501-3134




                                                                                            April 1, 2007 – September 30, 2007 67
                                       Notes




68 Semiannual Report to the Congress
Make
like
i
ts
your
money!
Itis.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405

or access the Web: www.gsa.gov/fraudnet

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsa.gov/inspectorgeneral
